U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                U.S. CENSUS BUREAU

     Valuable Learning Opportunities
      Were Missed in the 2006 Test of
                 Address Canvassing


                      Final Report No. OIG-17524/March 2006




                             PUBLIC
                             RELEASE

                              Office of Inspector General
U.S. Department of Commerce                                                                                    Final Report OIG-17524

Office of Inspector General                                                                                                March 2006




                                                             CONTENTS

CONTENTS..................................................................................................................................... I 

EXECUTIVE SUMMARY ............................................................................................................. I

INTRODUCTION .......................................................................................................................... 1 

OBJECTIVES, SCOPE, AND METHODOLOGY........................................................................ 5 

FINDINGS AND RECOMMENDATIONS................................................................................... 6 

I. 	       UNRELIABLE HANDHELD COMPUTERS INTERFERED WITH THE TEST ........... 6 

           A. 	 HHCs Disrupted Training and Fieldwork, Corrupted Data, and Forced 

                Rework.................................................................................................................... 6 

           B. 	 Problems With Coordinate Collection Leave Questions About Use Of GPS 

                Unanswered............................................................................................................. 8 

           C. 	 Inadequate Development of HHC Software Diminished Value of Test................. 8 

           D. 	 Census Needs a Plan and Process for Conveying Final HHC Requirements 

                to Potential FDCA Contractors............................................................................... 9 

II. 	      MAP ERRORS AND INADEQUATE PROCEDURES FURTHER 

           COMPLICATED ADDRESS CANVASSING ................................................................ 13 

           A. 	 Map Errors Made It Difficult for Listers to Complete Assignments .................... 14 

           B. 	 Ambiguous and Incomplete Procedures Compromised Listers’ Ability to 

                Revise Address Lists............................................................................................. 15 

           C. 	 Identifying Complex Blocks Would Facilitate Address Canvassing.................... 17 

           D. 	 Reducing Cost of Questionnaire Delivery Was Not Tested ................................. 18 

III.	     NEW VERIFICATION PROCESS APPEARS FEASIBLE, BUT QUALITY 

          CONTROL TRAINING AND INFORMATION SHARING NEED 

          IMPROVEMENT ............................................................................................................. 23 

          A. 	 Quality Control Training Does Not Sufficiently Prepare QC Listers................... 24 

          B. 	 Poor Communication and Inadequate Management Reports Weakened 

               Quality Control ..................................................................................................... 24 

          C. 	 Including Interviewee Information on the HHCs Would Facilitate the 

               Quality Control Operation .................................................................................... 26 

IV. 	      MORE FOCUS ON OUTREACH IS NEEDED .............................................................. 28 

           A. 	 The Revised Tribal Liaison Program Handbook Was Not Finished in Time 

                for Address Canvassing ........................................................................................ 28 

           B. 	 Evaluating Partnership Methods and Messages Was A Missed Opportunity....... 29 

           C. 	 A Tool for Tracking Partnership Information Should Be Available in Time

                for 2010................................................................................................................. 30 

V. 	       CENSUS SHOULD IMPROVE GUIDANCE FOR OVERTIME AND CELL 

           PHONE USE AND TEST NEW APPROACHES TO TRAINING................................. 32 

           A. 	 Census Needs to Clarify Its Overtime Policy and Improve Its Cell Phone 

                Reimbursement Policy .......................................................................................... 32 

           B. 	 Failure to Test New Training Methodologies and Give Adequate Guidance 

                Weakened Address Canvassing ............................................................................ 35 

U.S. Department of Commerce                                                                                  Final Report OIG-17524

Office of Inspector General                                                                                              March 2006




VI.       CONCLUSION: VALUABLE LEARNING OPPORTUNITIES WERE MISSED 

          IN THE 2006 TEST ADDRESS CANVASSING OPERATION .................................... 38 

SUMMARY OF RECOMMENDATIONS .................................................................................. 42 

APPENDIXES .............................................................................................................................. 44 

APPENDIX A: SUGGESTED IMPROVEMENTS TO HANDHELD COMPUTERS .............. 44 

APPENDIX B: GLOSSARY........................................................................................................ 45 

APPENDIX C: CENSUS’S RESPONSE ..................................................................................... 47 

U.S. Department of Commerce                                                           Final Report OIG-17524

Office of Inspector General                                                                       March 2006




                                      EXECUTIVE SUMMARY 


The decennial census is a constitutionally mandated population count conducted for the purpose
of reapportioning seats in the U.S. House of Representatives. Decennial census data is also used
for a myriad of other purposes, such as redrawing state legislative district boundaries and
allocating federal funds to state and local governments. Decades of decennial censuses have
provided official, uniform information on the nation’s social, demographic, and economic trends.
Because of its importance, the decennial census should be as accurate and complete as possible.

The Census Bureau has reengineered its strategy for the 2010 decennial to improve accuracy,
reduce risks, and contain costs. The new strategy is intended to (1) replace the decennial long
form with a smaller annual survey known as the American Community Survey, (2) improve the
bureau’s address list and geographic database, and (3) conduct a program of early planning,
development, and testing culminating with a 2008 dress rehearsal of the actual 2010 census.

The 2006 test is the second of two scheduled site tests of concepts, systems, and procedures
being explored for the reengineered census. The test is being conducted in two locations—a
portion of Travis County, Texas, that included parts of the city of Austin and its suburbs, and the
Cheyenne River Reservation and Off-Reservation
Trust Land in South Dakota. Address canvassing,        Table 1: Site Listers & Workload
                                                                        Travis    Cheyenne Total
the first large-scale operation of the test, is                         County River
intended to ensure that the bureau’s address file       Listers             234           26        260
and digital map database are current and                Addresses 210,242              3,012 213,254
complete. During this operation, temporary field       Office managers, staff, field supervisors, and
staff, referred to as listers, verify, update, add, or crew leaders are not included in the counts.
remove addresses; add and delete streets to            Source: U.S. Census Bureau
correct the maps; and annotate the location of
addresses on the maps. The updated information is used in subsequent census operations to
contact every household either by mail or personal visit and has a direct bearing on the bureau’s
ability to accurately count the population. Address canvassing training for the 2006 test began in
June 2005 and the listing ran from late July through mid-September 2005.1

An OIG team drawn from our offices of Audits, Inspections and Program Evaluations, and
Systems Evaluation reviewed selected aspects of the address canvassing operation in the 2006
site test to assess (1) efforts to automate address canvassing using handheld computers and
associated systems; (2) methods for correcting the address lists and maps; (3) quality control
processes; (4) outreach activities; and (5) lister training, and other components of the
management, administrative, and logistical support for the 2006 test. We primarily conducted
our review from June through December 2005 at bureau headquarters in Suitland, Maryland; the
Denver, Colorado, regional office; and the two test sites—Travis County, Texas, and the
Cheyenne River Reservation in South Dakota.



1
 April 1, 2006 is Census day. Enumeration operations occur in 2006: update/enumerate on the Cheyenne River
Reservation from March to May, group quarter’s enumeration from April to May, and nonresponse follow-up in
Travis County from April to July.
                                                      i
U.S. Department of Commerce                                                  Final Report OIG-17524

Office of Inspector General                                                              March 2006




We concluded that the bureau only partially achieved its objectives for the address canvassing
operation of the 2006 test and missed a number of opportunities to learn valuable information to
apply to the decennial. Specifically, our review disclosed the following.

Unreliable handheld computers interfered with the test. Because of significant difficulties
developing the HHC software, Census could not successfully complete each testing cycle. As a
result, the bureau decided to delay address canvassing by 1 month to further test and correct the
software. Although serious problems remained, the bureau decided to proceed with address
canvassing, with the goal of learning as much as possible about using HHCs for this operation.
As in 2004, the HHCs suffered from frequent crashes, data loss, slow performance, and problems
associated with collecting global positioning system coordinates. Also, last minute changes to fix
the HHCs rendered some of the training material out of date. The unreliable HHCs had a
significant impact on canvassing operations—neither test site reached its production numbers
and canvassing was extended an additional 10 days in an attempt to make the address list as
complete as possible for the remaining 2006 test operations.

In addition, GPS functions for collecting address coordinates worked only intermittently and
were often slow to activate. Preliminary test results suggest that the coordinate collection
software on the HHCs may have incorrectly calculated address coordinates. This problem, in
conjunction with the HHC reliability problems, diminishes what the bureau can learn from the
test. GPS functionality for navigation and coordinate collection needs to be fixed and tested
under real operating conditions before the 2010 decennial to see whether it meets performance
and procedural requirements.

A major purpose of the 2006 site test is to identify lessons learned in automating key Census
operations in order to refine requirements for the Field Data Collection Automation (FDCA)
contract, which will produce the HHCs. Time is running out for identifying and documenting
automation issues and competitively negotiating the cost of changes to address canvassing
requirements prior to contract award. (See page 6.)

Map errors and inadequate procedures further complicated address canvassing. The 2006
test provided the opportunity to assess the accuracy of the maps installed on the handheld
computers, their success at guiding listers to specific addresses, and the ease with which listers
could modify maps and addresses to match what they encountered on the ground. Although it
appeared that the HHC maps accurately represented most areas of the test sites, they contained a
number of nonexistent or misplaced roads, which caused problems in 9 of the 44 canvassing
efforts we observed: listers in these instances spent excessive time trying to locate their routes
and often did not fully canvass their assignment area, may have missed housing units, and failed
to correct maps. Ambiguous and incomplete procedures as well as complex block configurations
further compromised listers’ ability to revise address lists. Finally, as in 2004, the 2006 sites
were too limited to test whether Census could expand postal delivery of questionnaires and
thereby significantly reduce its own costs for hand delivering them to respondents—all of the
Travis County site receives postal delivery, while on the Cheyenne River Reservation, Census
will have to hand deliver all questionnaires. The bureau needed a test site that contained a mix of
city-style and rural areas, with some of the latter potentially shifting from bureau delivery to
postal delivery for Census 2010. Based on a bureau evaluation, it appears that potentially 9.5

                                                 ii
U.S. Department of Commerce                                                               Final Report OIG-17524

Office of Inspector General                                                                           March 2006




million2 residences could have been converted to postal delivery, a substantially less expensive
method than hand delivering questionnaires. (See page 13.)

New verification process appears feasible, but quality control training and information
sharing need improvement. Census has implemented a new procedure during the quality
control (QC) process that will more rapidly update the address list. In the past, the delete and
house number verifications occurred after the address canvassing operation concluded. In the
2006 test, verification occurred during address canvassing—as soon as an individual assignment
area was canvassed, quality control listers verified the canvassing data collected. The bureau’s
plan was to report its quality control findings to the local census office (LCO) to improve the
listing operation as it progressed. Despite technical problems with the HHCs, quality control
listers successfully verified address deletions and house number changes during the address
canvassing operation. But weaknesses in training and management reporting, as well as the
bureau’s failure to analyze QC data during the operation, undercut the overall success of the
quality control process. (See page 23.)

More focus on outreach is needed. The partnership program—a public awareness effort that
couples partnership specialists with public and private organizations—is a key component of
outreach for the decennial. In Census 2000 the bureau hired some 690 specialists, who partnered
with more than 140,000 organizations in an effort to increase participation among hard-to-reach
groups. However, a direct connection between outreach efforts, such as the partnership program,
and response rates is difficult to quantify. Census spent $142.9 million on the program (2 percent
of the total cost of the 2000 decennial)3 and expects to implement a similar program for the 2010
decennial. In the 2006 test, the bureau missed an opportunity to assess new methods for
increasing response among American Indians and other hard-to-enumerate populations and for
collecting quantifiable data to evaluate the success of such efforts. The lack of a fully functional
partnership program database—containing important historical and logistical details about
Census partners—could hamper outreach efforts. (See page 28.)

Census should improve guidance for overtime and cell phone use and test new approaches
to training. Planning for the 2010 census offers new challenges, as the automation of key field
operations is a new feature of this decennial and uncharted territory for the bureau. We assessed
aspects of the administrative and logistic support for the 2006 test and found weaknesses in
overtime and cell phone reimbursement policies and training guidance and implementation.
(See page 32.)

Valuable learning opportunities were missed in the 2006 test address canvassing operation.
The bureau only partially achieved its objectives for the address canvassing operation for the

2
  In evaluating Census 2000, the bureau reported that 22 million housing units were listed in the address listing
operation, all of which would receive hand-delivered questionnaires. The bureau also reported that approximately 43
percent of these were also on an early postal service address file. From this information, we calculated that 9.5
million residences were capable of receiving the questionnaire by mail. See U.S. Census Bureau, January 2002. The
Address Listing Operation and Its Impact on the Master Address File, Census 2000 Evaluation F.2. Washington,
D.C.: Census Bureau.
3
  Costs are from October 1997 through September 2000, with $65.1 million spent on salaries and benefits and the
remainder for nonpayroll expenditures such as travel, training, supplies, and postage. From Review of Partnership
Program Highlights Best Practices for Future Operations, GAO-01-579, August 2001.
                                                        iii
U.S. Department of Commerce                                                    Final Report OIG-17524

Office of Inspector General                                                                March 2006




2006 test. It gained only limited information about new automation, procedures, and processes to
analyze and apply to the decennial. We believe the bureau could have earned a better return on
its investment if it had evaluated other aspects of address canvassing and had furnished well-
functioning handheld computers.

In addition, after observing the address canvassing operation, we believe that Census needs to
better clarify its rationale and decision to canvass 100 percent of the nation for the 2010
decennial census. The bureau had initially intended to target selected areas for canvassing, but
now plans to have listers knock on nearly every residential door in the nation—an estimated 115
million addresses—to update the master address file. Census has not provided any analysis
justifying the use of 100 percent address canvassing, and it is unclear whether the benefits
outweigh the costs. (See page 38.)

A summary of our recommendations can be found on page 42.



In its response to our draft report, the Census Bureau concurred with some of our findings and
recommendations, but took issue with others. In particular, it disagreed that valuable learning
opportunities were missed, that unreliable handheld computers interfered with the test, and that
an analysis of the costs and benefits of 100 percent address canvassing should be performed and
less costly alternatives considered. We are requesting that the bureau describe what actions it
will take to address our concerns in its action plan. We found several inaccurate statements made
in the bureau’s response and, where possible, tried to address those inaccuracies.

The bureau stated that it was troubled by the title of the report, noting that additional time, expert
staff, and budget would have allowed it to study other research questions, but those resources
were unavailable. The bureau pointed out that it selected the most critical questions to research,
and that our report does not suggest that some of the research the bureau conducted was less
important than research we identified in our report.

We reaffirm our position that valuable learning opportunities were missed. In particular, we
would note that OIG never suggested that Census should have devoted additional resources to
the test. Rather, we believe the bureau could have utilized the resources (time, staff, and budget)
it devoted to the test more effectively. The research questions for the 2006 test were developed
before the bureau knew of the significant problems with the handheld computers, which by most
accounts, ultimately resulted in a pared down evaluation agenda. Our primary concern here is
that some evaluations were eliminated not based on their importance to 2010 planning, but
because of the poorly performing HHCs. An undertaking of the magnitude of the 2006 test
requires extensive budgetary and staff resources, and this test is one of the few occasions for the
bureau to perform large-scale field testing for 2010. Thus, having to reduce the number and
content of the planned evaluations clearly represents a missed opportunity.

In disagreeing that the unreliable hand-held computers interfered with the test, the bureau stated,
the handheld computers were the test. The bureau maintained that it was testing the feasibility of
the concept of automating the address canvassing operation. The bureau stated that although
originally it had some other test and research objectives, it just needed “…to get through a
                                                  iv
U.S. Department of Commerce                                                           Final Report OIG-17524

Office of Inspector General                                                                       March 2006




dramatically re-envisioned operation.” While Census noted that it did not mean to minimize the
problems, it maintained that reaching certain production numbers and receiving updates for all
areas was not the real objective. Census said its decision to outsource to industry the
development of both the hardware and software was based in part on the challenges and issues
the bureau experienced in developing the automated systems for the 2004 and 2006 tests.
Moreover, the bureau indicated that the address canvassing prototypes developed by the vendors
competing for the Field Data Collection Automation (FDCA) contract have demonstrated the
feasibility of using HHCs for address canvassing.

Consequently, we stand by our finding that the unreliable HHCs interfered with the 2006 address
canvassing operation and consequently diminished what the bureau could learn from the test.
The test objectives documented in the Census 2006 Test Project Management Plan laid out
higher aspirations than “to get through a dramatically re-envisioned operation.” The plan
described research questions that, if answered, would provide essential information for 2010
census planning—including the degree to which automation reduces the time required to collect
and process the address canvassing data, whether GPS is a sufficiently accurate method for
collecting coordinates, and whether automation improves the quality of the collected data.
However, the poorly performing HHCs prevented the bureau from answering these questions.
Although the bureau believes that the competing FDCA vendors have demonstrated the
feasibility of using HHCs for address canvassing, it remains unclear on what basis time and
resource estimates for using HHCs to conduct address canvassing in the 2010 census are being
made.

The bureau strongly disagreed with our recommendation to perform an analysis of the costs and
benefits of 100 percent address canvassing and consider whether alternative, less costly
strategies for developing the address list for the 2010 decennial are feasible. It stated that
funding to test alternatives was not available and expressed surprise that OIG might consider
anything less than 100 percent address canvassing acceptable because, by definition, some
addresses will be left out of the initial address list for the 2010 census.

OIG is not advocating for or against 100 percent canvassing. However, continuously
maintaining the master address file to permit targeted address canvassing was a cornerstone of
Census’s original reengineered design. Then, with little explanation, the bureau abandoned this
aspect of the design, and reverted to 100 percent address canvassing at an estimated increase of
$38 million to the life-cycle costs of the 2010 census.4 The bureau has not articulated any
alternatives that it may have considered and their relative costs and benefits. By asserting that
anything less than 100 percent address canvassing in all areas will result in some addresses being
left out of the initial address list for the 2010 census, the bureau implies that 100 percent address
canvassing will not miss addresses. Although intuitively appealing in concept, 100 percent
address canvassing has significant challenges of its own, and unfortunately, even this expensive
operation cannot render a perfect address list—an outcome bureau officials readily acknowledge.
Since Census has not provided any evidence that 100 percent address canvassing produces an
address list that is more accurate than one that could be produced with an alternative
methodology, we question whether the additional expense of 100 percent address canvassing is

4
 U.S. Census Bureau, March 1, 2004. Estimated Life Cycle Costs for the Reengineered 2010 Census of Population
and Housing, 2010 Census Planning Memoranda Series No. 27, Washington, D.C.: Census Bureau.
                                                      v
U.S. Department of Commerce                                                  Final Report OIG-17524

Office of Inspector General                                                              March 2006




justified. The bureau’s challenge—if not obligation—is to identify the most cost effective
approach to obtaining an address list of requisite quality to support the 2010 decennial goals for
accuracy of census coverage, cost containment, and operational risk.

A synopsis of Census’s response to our draft report and our comments are presented after each
finding. The bureau also provided technical clarifications on the text of our draft report, which
we have incorporated into the final report as appropriate. Census’s response is included in its
entirety as Appendix C.




                                                vi
U.S. Department of Commerce                                                               Final Report OIG-17524

Office of Inspector General                                                                           March 2006




                                           INTRODUCTION

Reengineering the Decennial Census

The decennial census is a constitutionally mandated population count conducted for the purpose
of reapportioning seats in the U.S. House of Representatives. Decennial census data is also used
for a myriad of other purposes, such as redrawing state legislative district boundaries and
allocating federal funds to state and local governments. Decades of decennial censuses have
provided official, uniform information on the nation’s social, demographic, and economic trends.
Because of its importance, the decennial census should be as accurate and complete as possible.

The Census Bureau has reengineered its strategy for the 2010 decennial to improve accuracy,
reduce risks, and contain costs. The new strategy is to (1) replace the decennial long form with a
smaller annual survey known as the American Community Survey, (2) improve the bureau’s
address list and geographic database, and (3) conduct a program of early planning, development,
and testing culminating with a 2008 dress rehearsal of the actual 2010 census.

The 2006 Site Test

A site test is a partial census of population and housing that the bureau conducts under realistic
conditions in selected areas. The purpose is to determine the validity and effectiveness of a
variety of operations, procedures, and systems
prior to a decennial census. The Census Bureau is        Figure 1: 2010 Census Field Operations
currently conducting such a test (called the 2006        Conducted in 2006 Site Test
                                                                                          2006
test) in two locations—a portion of Travis County,             2010 Census Operations
                                                                                          Test
Texas, that includes parts of the city of Austin and        Address Canvassing *            9
its suburbs, and the Cheyenne River Reservation             Group Quarters Validation       9
and Off-Reservation Trust Land in South Dakota.             Group Quarters Advance Visit    9
                                                            Military Advance Visit
The bureau chose these two sites because their              Remote Alaska Enumeration
demographics and geography support test                     Update/Enumerate                9
objectives. For example, the Travis County site has         Service Based Enumeration
                                                            Update/Leave
a large Spanish-speaking population for testing the
                                                            Hotel and Motel Enumeration
use of Spanish language questionnaires, and the             Transient Night
Cheyenne River Reservation is a remote area with            Group Quarters Enumeration      9
rural style addresses for testing address canvassing        Military Enumeration
                                                            Nonresponse Follow-up *         9
procedures.                                                 Field Verification
                                                                Coverage Follow-up                       9
Figure 1 presents the decennial field operations                Coverage Measurement *                   9
                                                              * Field-workers will use handheld computers.
being conducted during the 2006 test. For this                Source: U.S. Census Bureau
report, we reviewed the test of address canvassing,
which started in mid-2005.5


5
 April 1, 2006 is Census day. Enumeration operations occur in 2006: update/enumerate on the Cheyenne River
Reservation from March to May, group quarter’s enumeration from April to May, and nonresponse follow-up in
Travis County from April to July.


                                                      1

U.S. Department of Commerce                                                            Final Report OIG-17524

Office of Inspector General                                                                        March 2006




The Travis County site is managed by a local census office (LCO), while the Cheyenne River
site has a smaller census field office (CFO) that is managed by the Census regional office in
Denver. For address canvassing, the sites have a           Table 2: Site Listers & Workload
combined workforce of over 250 listers and a                              Travis       Cheyenne       Total
workload of more than 210,000 addresses (see Table                        County         River
                                                            Listers           234              26       260
2). Both sites operated as they would during a              Addresses 210,242               3,012 213,254
decennial, with managers, office staff, and listers        Office managers, staff, field supervisors, and
working under realistic production goal pressures.         crew leaders are not included in the counts.

                                                                Source: U.S. Census Bureau
Address Canvassing Operation

Address canvassing is intended to ensure that the bureau’s address file and digital map database
are current and complete. The master address file (MAF) is a computer inventory of every
address and physical/location description of every place where people live or stay. The
Topologically Integrated Geographic Encoding and Referencing (TIGER®) database is a digital
map containing the locations of streets, rivers, railroads, boundaries, and other geographic
features for all the territories covered by the decennial census.6 Each address and
physical/location description in MAF, including geographic locations, is linked to TIGER.
Besides address canvassing, the Census Bureau uses other sources to keep the master address file
current including the U.S. Postal Service address file and information from local governments.
Census also has awarded a contract valued at over $200 million for making TIGER more
accurate by aligning streets and other geographic features on the maps with their true location on
the ground.

Similar to the 2000 census address canvassing operation, temporary Census employees (“listers”
or “production listers”) travel around (“canvass”) blocks in assigned areas looking at all sites
where people live, stay, or could live (i.e., all individual “living quarters”). These listers
compare what they discover on the ground to their address list and map. They verify, update,
add, or remove addresses to correct the list; add and delete streets to correct the maps; and
annotate the location of addresses on the maps. The updated information is used in subsequent
census operations to contact every household either by mail or personal visit and has a direct
bearing on the bureau’s ability to accurately count the population.

Implementing a quality control (QC) process, to ensure that the data collected meets a
predetermined accuracy level, is a standard bureau practice. In both the 2000 census and the
2006 test, a randomly selected portion of a lister’s work was compared against what was seen on
the ground. However, in 2000, the personnel that performed the initial listing also conducted the
quality review. For the 2006 test a separate staff of listers was hired and trained for the quality
control function. In addition, the bureau is testing a new delete verification procedure in the
2006 test. The new procedure requires the QC lister to verify all deleted addresses and house
number changes recorded by the initial (production) lister. If deleted addresses are verified as



6
 The decennial census covers the United States, Puerto Rico, American Samoa, Guam, the Commonwealth of the
Northern Mariana Islands, and the U.S. Virgin Islands.


                                                     2

U.S. Department of Commerce                                                             Final Report OIG-17524

Office of Inspector General                                                                         March 2006




nonexistent, they are removed from the address list.7 This new procedure is intended to yield cost
savings in subsequent census operations by eliminating unnecessary mailings and visits.

A key feature of the reengineered 2010 census is automated field operations via a handheld
computer (HHC) equipped with a GPS receiver and TIGER maps. According to the Census
Bureau, if successful, automation of decennial field operations could produce significant cost
savings and improve data quality. In 2004, Census tested handheld computers in nonresponse
follow-up (NRFU) and determined that they were feasible for use in the field. In the 2006 test,
Census is evaluating the use of handhelds for address canvassing.8 Listers used the handheld
computers to manage work assignments, enter address data, and transmit data to bureau
headquarters. They have also used the HHC maps and GPS to locate and navigate blocks and
annotate maps with the location of the addresses. Automation also quickly captures deleted
addresses and house number changes, allowing the bureau to perform the delete verification
procedure during the address canvassing operation rather than subsequently.

Test Objectives

The bureau’s overall objective for the 2006 site test is to obtain information needed to make
informed decisions about adopting, refining, or rejecting new methods and systems for the 2010
census. For address canvassing, the bureau is primarily evaluating the use of handheld computers
and the new delete verification process. According to the bureau, the lessons learned from the
test will help determine the feasibility of implementing various automated address canvassing
functions, assess the impact of automation on cost and data quality, and refine automation
requirements.

The bureau developed the HHC and related automation mainly for testing purposes. For the
dress rehearsal and 2010 census, the bureau will hire a contractor to develop and implement field
automation and support services. The Field Data Collection Automation (FDCA) contract is
scheduled to be awarded on March 31, 2006. Prototypes of the address canvassing systems will
be evaluated as part of FDCA source selection. Census plans to incorporate the refined
requirements resulting from the test into the FDCA contract.

Another objective of the 2006 test is to determine whether the delete verification and address
canvassing operations can be combined. In the past, the bureau separately verified addresses that
canvassers had marked for deletion. By shortening the time between marking and verifying an
address for deletion, the bureau expects to reduce the errors caused by the status of addresses
changing over time. Address canvassing was also the first opportunity for the bureau to evaluate
the tribal liaison program initiated on the Cheyenne River Reservation. In addition, new
methods for distinguishing separate living quarters (places where occupants live separately and
have direct access, such as a single-family house, mobile home, or apartment) and group quarters


7
 Addresses are not deleted from the MAF, they are flagged and removed from the address list for this test.
8
 Census also plans to test new handheld computer functions in the 2006 nonresponse follow-up, such as time
keeping, and in the coverage measurement operation at the Travis County test site.



                                                       3

U.S. Department of Commerce                                                   Final Report OIG-17524

Office of Inspector General                                                               March 2006




(places where unrelated people live or stay such as a nursing home or college dormitory) are
being tested.

Office of Inspector General Oversight

This report details our review of the 2006 address canvassing operation and is the fifth in a series
on the bureau’s preparation for the 2010 census.

Office of Inspector General Reports on 2010 Decennial Census Program

     1.	 Improving our Measure of America: What Census 2000 Can Teach Us in Planning for
         2010, Report No. OIG-14431, Spring 2002

     2.	 MAF/TIGER Redesign Project Needs Management Improvements to Meet Its Decennial
         Goals and Cost Objectives, Report No. OSE-15725, September 2003

     3.	 Improving Our Measure of America: What the 2004 Census Test Can Teach Us in
         Planning for the 2010 Decennial Census, Report No. OIG-16949, September 2004

     4.	 FDCA Program for 2010 Census Is Progressing, but Key Management and Acquisition
         Activities Need to be Completed, Report No. OSE-17368, August 2005




                                                 4

U.S. Department of Commerce                                                    Final Report OIG-17524

Office of Inspector General                                                                March 2006





                      OBJECTIVES, SCOPE, AND METHODOLOGY 


An OIG team drawn from our Office of Audits, Office of Inspections and Program Evaluations,
and Office of Systems Evaluation reviewed selected aspects of the address canvassing operation
in the 2006 site test to determine the effectiveness of (1) efforts to automate address canvassing
using handheld computers and associated systems; (2) methods for correcting the address lists
and maps; (3) quality control processes; (4) outreach activities; and (5) address canvassing
training and other aspects of the management, administrative, and logistical support for the 2006
test.

We conducted our review from June through December 2005 at bureau headquarters in Suitland,
Maryland; the Denver, Colorado, regional office; and the two test sites—Travis County, Texas,
and the Cheyenne River Reservation in South Dakota. Training for the 2006 test began in June
2005 and the listing ran from late July through mid-September 2005.

In preparing for our fieldwork, we reviewed the administrative, technical, training, and
instruction manuals for the field offices, as well as partnership program materials, tribal liaison
program training, and other documents. In addition, we interviewed the technical staff that
developed the HHCs and related systems. We also studied pertinent census test and 2010
planning and decision memoranda that were issued as our work was in progress.

During our fieldwork, we attended portions of 19 training classes for field operations supervisors
(FOSs), crew leaders, and listers. We sat in on 20 FOS meetings with crew leaders and crew
leader meetings with their listers. We observed a total of 44 production and quality control listers
performing address canvassing over a 4-week period at both test sites. We conducted interviews
with headquarters, regional managers, all of the local office managers, and numerous field staff.
We also reviewed reports that the local offices use to manage the operation. This extensive
fieldwork helped us understand the challenges of address canvassing.

Upon completing our fieldwork, we conducted follow-up interviews with headquarters and
regional officials to discuss matters such as canvassing procedures, quality control, automation,
GPS, and HHC maps.

We recognize that the purpose of the 2006 test was to assess concepts, systems, and procedures
for a reengineered 2010 census, and that some of the problems encountered may not be issues for
future tests or the 2010 decennial (for example, systems tested were not prototypes of the final
technical design). Nevertheless, the problems that surfaced during the test underscore the
challenges faced by Census in conducting a thoroughly tested and smooth-running 2010
decennial census operation.




                                                  5

U.S. Department of Commerce                                                       Final Report OIG-17524

Office of Inspector General                                                                   March 2006




                            FINDINGS AND RECOMMENDATIONS 


I.      UNRELIABLE HANDHELD COMPUTERS INTERFERED WITH THE TEST

A key goal of our review was to identify issues with automation of address canvassing that
would require attention in the test of nonresponse follow-up (scheduled for spring/summer 2006)
and the Field Data Collection Automation contract to be awarded in March 2006. Census held its
first site test of field automation in 2004, and at that time we concluded that handheld computers
were a promising replacement for paper-based NRFU. However, numerous technical problems
disrupted training and operations.9 For the 2006 test, the bureau resolved some of the major
automation and technical support issues we identified: among other things, it added backup
telecommunication servers at headquarters in case the primary servers failed, made it easier for
HHC users to set up and monitor transmissions, sped up the HHCs’ map display capability, and
improved the quality of technical support.

But Census failed to adequately manage development of HHC functionalities needed to support
address canvassing and encountered numerous problems—many of them similar to those we
noted in 2004—that interfered with training and operations and introduced inaccuracies in the
test results. In addition, one of the main reasons for testing the HHC was to refine requirements
for the FDCA contract. We found that the bureau has not established a process for sharing
lessons learned about automation with potential FDCA contractors or for incorporating revised
requirements before contract award.

A.      HHCs Disrupted Training and Fieldwork, Corrupted Data, and Forced Rework

Because of significant difficulties developing the HHC software, Census could not successfully
complete each testing cycle. As a result, the bureau decided to delay the test by 1 month to
further test and correct the software. Although serious problems remained, the bureau decided to
proceed with address canvassing, with the
goal of learning as much as possible about        Figure 2: Major Address Canvassing Functions
using HHCs for this operation.                    of the HHC
Unfortunately, as in 2004, the HHCs                   • Managing work assignments
suffered from frequent crashes, data loss,            • Updating address records
slow performance, and GPS difficulties. One           • Annotating maps with address location
                                                      • Processing quality control and delete
indicator of the extent of problems was that              verification data
the Travis County help desk received about            • Handling data flow between the lister and
five times the industry average number of                 Census headquarters for updating
calls for fielded systems.                                addresses, providing quality control, and
                                                             verifying address deletions
The unreliable HHCs had a significant
impact on canvassing operations. It appears
that HHC problems were a major contributor to the two test sites failing to meet their production

9
 U.S. Department of Commerce Office of Inspector General, Spring 2002. Improving Our Measure of America:
What Census 2000 Can Teach Us in Planning for 2010, OIG-14431. Washington, D.C.: Department of Commerce
OIG.


                                                    6

U.S. Department of Commerce                                                  Final Report OIG-17524

Office of Inspector General                                                              March 2006




goals. Neither Travis County nor the Cheyenne River Reservation finished work at the scheduled
end of address canvassing (September 2)—Cheyenne River was only 68 percent complete and
Travis County was 90 percent finished. By extending the operation for 10 days to make the
address list as complete as possible for 2006 test operations that follow, Travis County was able
to complete 98 percent and Cheyenne River 89 percent of their assignment areas.

Census tried to minimize potential disruptions that faulty HHCs could cause by increasing
technical support. In Travis County two extra crew leader assistants and a technical assistant
were assigned to each training location and two additional technical assistants were assigned to
the LCO. The Cheyenne River Reservation office received one additional technical assistant.
These extra personnel were for the most part reassigned from headquarters—an option that will
not be feasible during the actual census, when approximately 500 LCOs and thousands of
training centers will be operational. In the end, additional staff at the test sites could not
compensate for the inherent weaknesses and attendant problems in the HHC system, such as the
following:

   •	 Lost and inaccurate data. To eliminate a problem that plagued the 2004 test, Census
       designed the HHC to prevent data loss if the system crashed and to let listers restart
       crashed units in the field rather than having to return to the local office to obtain
       assistance. But this functionality did not work in some situations, especially during the
       quality control process, where HHCs crashed frequently and a significant amount of data
       was lost. Listers in Cheyenne River had to recanvass 25 assignment areas (13 percent of
       the total) to recover lost data. The Travis County office also suffered an undetermined
       amount of losses that required recanvassing. Even a single loss could be significant
       depending on the size of the census block. For example, in Travis County an HHC
       crashed and lost the data collected for a large block—a total of 900 addresses. The lister
       had to recanvass them all.

       Also, the HHC sometimes inaccurately counted various lister actions—for example,
       whether a lister verified, corrected, deleted, or added addresses, and the number of
       successful and failed attempts to use GPS to capture coordinates. Managers relied on
       reports containing these erroneous counts. These inaccuracies raise concerns about the
       reliability of other data collected by the HHC and could negatively affect analysis of test
       results and updates to the address list.

   •	 Slow operations. The bureau also designed the HHC to work faster than it had in 2004,
       particularly in moving maps and data to and from internal memory. However, in certain
       circumstances the HHC continued to operate slowly, particularly when moving from
       function to function. We observed it taking minutes instead of seconds to open or return
       to the address list, especially when it contained many records; move from the data
       collection function to the assignment management function; and to activate the GPS
       utility. Slow performance made it more difficult for listers to follow procedures and
       complete assignments. For example, one lister resorted to collecting data on paper and
       told us he would later enter the data into the HHC at home.




                                                7

U.S. Department of Commerce                                                          Final Report OIG-17524

Office of Inspector General                                                                      March 2006




B. 	    Problems With Coordinate Collection Leave Questions About Use Of GPS
        Unanswered

The handheld computer’s GPS receiver, which features a "you-are-here" indicator on the HHC
map, helps listers navigate their assignment areas and for each structure containing one or more
addresses, collect its latitude and longitude coordinates. The bureau believes GPS will help
reduce decennial costs by enabling listers to find addresses more quickly and improve accuracy
of the master address file by assigning addresses to their correct census block and eliminating
duplicates. The bureau first tested coordinate collection in the 2004 site test of nonresponse
follow-up and found that field staff frequently did not collect coordinates because of problems
with the HHCs or physical obstructions to the GPS signal (e.g., tall buildings or heavy tree
cover). Although the test procedures in 2004 instructed listers to always obtain coordinates, we
also learned they sometimes simply chose not to collect GPS data. For the 2006 test, Census
programmed the HHC to make coordinate collection a mandatory step for listers and added a
feature allowing them to zoom in on the HHC map and select a position on the map to place a
spot if the GPS you-are-here indicator was not working.10

When the GPS function on the HHC worked, listers found the you-are-here indicator a valuable
navigation tool, especially in unmapped areas, such as remote portions of the Cheyenne River
Reservation and new housing developments in Travis County. But the GPS function worked
only intermittently and was often slow to activate. According to the bureau, test results suggest
that the coordinate collection software on the HHCs may have incorrectly calculated address
coordinates and caused slow GPS performance. These problems, in conjunction with the HHC
reliability problems, left important questions about coordinate collection unanswered. For
example, the bureau cannot adequately determine what obstacles prevent listers from using GPS
to collect coordinates, whether listers can follow coordinate collection procedures, and whether
collected coordinates are accurate. If Census wants to continue with its plan to capture GPS
coordinates for the decennial, problems with the GPS software need to be fixed and the system
must be operationally tested to see whether performance and procedural requirements are met.

C. 	    Inadequate Development of HHC Software Diminished Value of Test

Over the past 8 years, our office11 and the Government Accountability Office (GAO) have
reported extensively on the bureau’s inadequate approach to software development. Although
Census began to improve this process in 2002 and has made some progress,12 it clearly needs to
continue to focus on this area. Inadequate software development is at the heart of the HHC
problems noted in the 2006 test: the bureau’s inability to field reliable handheld computers
delayed the start of address canvassing and rendered the HHC less capable than planned—for
example, the devices lacked the capability to add missing streets to HHC maps, an important
function in a rapidly growing area such as Travis County. Census acknowledged that it lacked
sufficient in-house expertise to develop some of the HHC software. In the future, Census should

10
   Annotating the location of an address on the HHC map is called “map spotting.” 

11
   See the Office of Inspector General’s reports listed on page 4.

12
   U.S. Government Accountability Office, June 2005. Census Bureau Has Implemented Many Key Practices, but

Additional Actions Are Needed, GAO-05-661.Washington, D.C.: GAO.



                                                      8

U.S. Department of Commerce                                                   Final Report OIG-17524

Office of Inspector General                                                               March 2006




consider alternatives to in-house development before undertaking projects it might not have the
expertise to tackle.

The poorly performing HHCs distracted listers in training classes. Also, portions of some of the
manuals used during training were outdated because of the last minute changes made to the
HHC. For example, in one class we observed new material issued midway through training
creating difficulties for the trainer. Unreliable HHCs shook local staff’s confidence in the quality
control data collected (see chapter III for details). They made it more difficult to evaluate the
effectiveness of the quality control process, accurately predict production levels for listers, and
identify lessons learned. The HHC problems shifted the bureau’s focus from the real purpose of
the test, which was to explore improvements to automation and related procedures, such as how
to more fully utilize HHCs to aid listers in following procedures or to streamline data collection.
Instead, Census had to concentrate on just making the HHC work so that it could complete the
address canvassing operation. (Appendix A presents our suggestions for enhancing HHC
functionality.)

D. 	    Census Needs a Plan and Process for Conveying Final HHC Requirements to
        Potential FDCA Contractors

A major purpose of the 2006 site test is to identify lessons learned in automating key Census
operations in order to refine the requirements for the Field Data Collection Automation contract.
The handheld computer is FDCA’s key technology component. As part of the source selection
process, contractors built HHC prototypes that have basic address canvassing capabilities. The
prototypes were completed in December 2005 and the contract is to be awarded by March 31,
2006. Census believes that requiring prototypes as part of the contract award process increases
the likelihood of having a working system in place by the start of dress rehearsal address
canvassing, which begins in April 2007. The chosen contractor will have to make needed
changes to the prototype in the year between contract award and April 2007.
Figure 3: Schedule of FDCA activities related to dress rehearsal address canvassing
   SEP – DEC ’05      JAN – MAR ’06      31 MAR ’06     APR’06 – MAR ’07        APR ’07      __
       Build          Test & Evaluate      Award        Develop & Deploy Start Dress Rehearsal
 Address Canvassing     Prototype          FDCA          Dress Rehearsal  Address Canvassing
     Prototype                            Contract         Systems             Operation
Source: Census

As late as September 2005, the bureau had not developed a process for systematically identifying
relevant information gleaned from the test that could affect FDCA and for incorporating related
requirements changes into the FDCA contract. Although the basic tasks of address canvassing
are not expected to change, the test provided valuable insights for improving address canvassing
procedures, as well as for presenting information on the HHC, both of which could affect FDCA
requirements. For example, a cross-organizational team is examining quality control data to
determine the kinds of mistakes production listers made that caused their assignment areas to
fail. Census may use results from this assessment to improve address canvassing procedures,
which could necessitate changes to existing FDCA requirements. Similarly, observers of the test



                                                 9

U.S. Department of Commerce                                                    Final Report OIG-17524

Office of Inspector General                                                                March 2006




from within and outside the bureau identified numerous opportunities for enhancing the HHCs
support of field procedures (see appendix A).

In December, bureau officials stated that they planned to complete and document their
assessment of the address canvassing operation by the end of January 2006, but were still
discussing the best process for transferring relevant 2006 test information to the FDCA program
management office, for inclusion in the contract. However, time is running out for the bureau to
be able to competitively negotiate the cost of these changes before contract award.

Nonresponse follow-up. As with address canvassing, the bureau needs to convey refined
requirements for nonresponse follow-up automation for inclusion in the FDCA contract as soon
as possible after concluding this test operation (scheduled for April through July 2006 in Travis
County). After the 2004 site test, the bureau took over a year to issue a series of final reports on
HHC functionalities and needed enhancements. The upcoming test of nonresponse follow-up
will evaluate new or improved functionalities, such as managing enumerator workload and
payroll. The bureau needs to reexamine its evaluation schedules to make sure it can identify
refined NRFU requirements and incorporate them into the FDCA contract early enough to avoid
rework and enhance the likelihood that dress rehearsal systems meet Census’s needs.

RECOMMENDATIONS

The Census Bureau director should direct appropriate management officials to take the following
actions:

1. 	 Enhance the reliability of automation in future tests and operational programs by
       a. 	 continuing to improve system development practices and
       b.	 using contractors to fill any staffing gaps or, when warranted, to handle system
            development.

2. 	 Develop an adequate HHC capability for collecting address coordinates by
        a. 	 determining the factors that affect the reliability of GPS and accuracy of address
             coordinate collection, and
        b. 	 developing a plan for implementing and testing improvements so that this capability
             effectively supports decennial operations.

3. 	 Ensure that the FDCA contract appropriately addresses automation issues identified in the
     2006 test. These include system reliability, performance, and usability; GPS processing; and
     HHC street mapping capabilities.

4. 	 Establish a process for timely analysis of test results and incorporating resulting requirements
     changes for address canvassing and nonresponse follow-up into the FDCA contract. If
     possible, incorporate changes to address canvassing requirements before contract award.




                                                 10

U.S. Department of Commerce                                                   Final Report OIG-17524

Office of Inspector General                                                               March 2006





Synopsis of Census’s Response

In its response, Census stated that it does not agree that the unreliable hand-held computers
interfered with the 2006 test of address canvassing. Rather, the bureau stated that the handheld
computers were the test. The bureau maintained that it was testing the feasibility of the concept
of automating the address canvassing operation. While acknowledging that originally it had
some other test and research objectives, the bureau stated that it just needed to “get through a
dramatically re-envisioned operation.” While Census noted that it did not mean to minimize the
problems it had with creating an automated operation, it maintained that reaching certain
production numbers and receiving updates for all areas was not the real objective.

The bureau was concerned that our draft report’s reference to a “lengthy testing program” made
it appear that Census had a robust testing program. In fact, Census asserted it had difficulty
developing the automated systems for address canvassing. The bureau implemented many tests
in a 9-month period because it was unable to successfully resolve software problems. Also, the
bureau clarified that intermittent GPS availability, slow GPS performance, and inaccurately
calculated GPS coordinates on the HHC were caused by problems with the bureau-developed
GPS software and were not due to shortcomings in the GPS signal or hardware.

Further, Census said its decision to outsource to industry the development of both the hardware
and software was based in part on the challenges and issues the bureau experienced in
developing the automated systems for the 2004 and 2006 tests. The bureau goes on to say that
2006 test experiences are being summarized in the form of requirements for use by the FDCA
contractor, and that 2006 test development teams are prepared to work with the contractor and
other Census divisions on final HHC requirements if needed. It also noted that as part of its
acquisition strategy for FDCA, the competing vendors developed address canvassing prototypes,
which have demonstrated that HHCs are feasible for address canvassing operations without a
large Census Bureau investment.

In its response, Census did not agree nor disagree with the recommendations in this section.

OIG Comments

We stand by our finding that the unreliable HHCs interfered with the 2006 address canvassing
operation and consequently diminished what the bureau could learn from the test. During our
firsthand observations of training classes, we saw training suffer as listers became distracted by
their malfunctioning HHCs, and failed to pay attention to the address listing procedures being
taught. We also saw slow performance and HHC crashes make it more difficult for listers to
follow procedures and complete assignments in the field.

The test objectives documented in the Census 2006 Test Project Management Plan laid out
higher aspirations than to “get through a dramatically re-envisioned operation.” The plan


                                                11

U.S. Department of Commerce                                                 Final Report OIG-17524

Office of Inspector General                                                             March 2006




described research questions that, if answered, would provide essential information for 2010
census planning—including the degree to which automation reduces the time required to collect
and process the address canvassing data, whether GPS is a sufficiently accurate method for
collecting coordinates, and whether automation improves the quality of the collected data.
However, the poorly performing HHCs prevented the bureau from answering these questions.
We strongly agree that contracting for field automation was a prudent decision. That the bureau
believes the address canvassing prototypes developed by the competing vendors demonstrated
the feasibility of address canvassing is also a positive development. It remains unclear, however,
on what basis time and resource estimates for using HHCs to conduct address canvassing in the
2010 census are being made.

In addition, if the HHCs had worked well, the bureau would have obtained better information for
defining address canvassing system and operational requirements for the FDCA contractor. At
the time of our January 2006 exit conference, the limited information from the 2006 test
experience was still being summarized by Census, and the process for transferring lessons
learned to the FDCA contract remained to be identified. It should be noted that the FDCA
contract was awarded March 30, 2006; thus the opportunity to incorporate meaningful changes
from address canvassing into FDCA before contract award has passed.




                                               12

U.S. Department of Commerce                                                               Final Report OIG-17524

Office of Inspector General                                                                           March 2006




II. 	    MAP ERRORS AND INADEQUATE PROCEDURES FURTHER
         COMPLICATED ADDRESS CANVASSING

The 2006 test provided the opportunity to assess the accuracy of TIGER maps installed on the
handheld computers, their success at guiding listers to specific addresses, and the ease with
which listers could modify maps and addresses to match what they encountered on the ground.
Census updated the maps initially installed on the HHCs from data provided by a contractor who
aligned streets with their true GPS location using local information on roads, railways, and
waterways from community and government organizations (among others).
  A block is the smallest geographic area for
  which the bureau collects decennial               Using the handheld computer’s GPS you-are-here
  information. Blocks are bounded mainly            function, listers canvassed clockwise along the border of
  by roads, but may have other features as          each block (see box). The address canvassing instruction
  their borders, such as streams and county
  lines. The bureau divides the nation into         manual provides specific procedures for listers to follow
  some 8 million blocks, and builds address         when they encounter certain situations. For example, when
  canvassing assignment areas from groups           a block border is a stream, railroad track, or something
  of blocks adjacent to one another.
                                  Assignment        other than a road, listers are to look along the border for
    Test Site           Blocks
                                    Areas           any living quarters not accessible from a street or road. If
    Travis County        4,867          1,076
    Cheyenne River       1,386            199
                                                    they cannot determine whether living quarters exist, they
    Total                6,253          1,275
                                                    are to ask a knowledgeable person, such as a postal carrier
                                                    or someone who lives nearby.
  Source: Census


In some areas, we found that the listers’ ability to use the GPS you-are-here function and update
addresses was hampered by erroneous maps on the HHCs and ambiguous instructions on how to
handle problems they encountered.
                   Figure 4: Block bordered by an unnamed road not accurate on map




                   Sources:   Census TIGER map, USDA Aerial imagery, OIG photos




                                                                13

U.S. Department of Commerce                                                 Final Report OIG-17524

Office of Inspector General                                                             March 2006





A.    Map Errors Made It Difficult for Listers to Complete Assignments

The HHC maps accurately represented most areas of the test sites but contained nonexistent or
misplaced roads, which caused problems in 10 of the 46 canvassing efforts we observed: listers
in these instances spent excessive time trying to locate their routes and often did not fully
canvass their assignment area, may have missed housing units, and failed to correct maps.

At the Cheyenne River site, for example,
    •	 One lister could not find a block that contained several structures because it was bordered
       by an unnamed road not accurately represented on the HHC map. As a result, the GPS
       you-are-here function indicated, in error,
       that the block was in the middle of an        Figure 5: Maps showed nonexistent roads
       empty field. The lister did not delete the
       misplaced road from the map and did not
       canvass the actual location. (See figure 4
       above.)
    •	 Another lister was able to travel only 2½ 

       sides of a square-mile block because the 

       remaining borders were not roads, though 

       they were shown as such on the HHC map. 

       The hilly terrain prevented the lister from

       visually canvassing the remaining 1½ 

       sides of the block for any living quarters. 

       The lister did not remove the nonexistent 

       roads from the map. (See figure 5.)

    •	 In a 3-block assignment area, while
       following the GPS you-are-here indicator
       along roads on the HHC, a lister drove off- Sources: American FactFinder map, OIG photo
       road through a field of clover for one block and through several miles of pasture for a
       second. The lister could not complete the assignment because roads shown on the map
       did not exist and fences obstructed passage. This lister also did not correct the map.

We later learned from bureau officials that the TIGER database contained roads for which the
contractor aligning them had received no current data. After reviewing aboveground images,
Census determined that nearly all of these nonaligned roads do not exist. It plans to develop
software to eliminate nonexistent roads for the dress rehearsal sites. However, the bureau does
not yet have a complete plan for identifying nonexistent roads throughout the nation and needs to
develop one to improve the accuracy of HHC maps used in decennial operations.

In Travis County, a quality control lister was able to check housing units along only two sides
of a block shown as having four sides on the HHC map, because the remaining two sides did not
exist. Then, instead of following procedure and continuing the check at the next available
housing unit in her assignment area, the lister drove to another area on the map to check other
units on her list. This departure from procedure put the validity of this quality control


                                               14

U.S. Department of Commerce                                                     Final Report OIG-17524

Office of Inspector General                                                                 March 2006




assignment in doubt because she worked from her list rather than reviewing successive housing
units on the ground.
Figure 6: Incorrect Travis maps
                                                  Listers told us of other city streets that were
                                                  misrepresented on the maps that nevertheless were
                                                b not corrected. In one example, two pieces of a
               a
                                                  noncontiguous street were connected. (See figure
                                                  6a.) In another, two parallel streets were shown as
                                                  connecting. (See figure 6b.) As in rural areas,
                                                  listers did not correct maps consistently, and the
                                                  errors caused confusion, making it difficult to
        Segments within rectangles do not exist   follow procedures and wasting time.
   Source: American FactFinder                                            Figure 7: Erroneous road
                                                                          segments remain on map
Even with improvements, maps may still contain nonexistent
roads, and the bureau needs to emphasize to listers that they
should delete nonexistent roads. According to bureau data,
listers did delete more than 80 nonexistent roads in Travis
County and 9 such roads on the Cheyenne River Reservation.
Yet in some cases these roads crossed multiple blocks and
assignment areas where they were deleted from some—but not
all—of the blocks. Consequently, some erroneous road
segments still remained on the maps. (See figure 7.) Also,
only 2 of the deleted roads in Travis County matched the
nonexistent roads we observed. Another 16 that we identified
in both sites combined remained in the database.

                                                                   Sources: TIGER map, CAPCOG imagery
B. 	   Ambiguous and Incomplete Procedures Compromised Listers’ Ability to Revise
       Address Lists

The address lists in the handheld computers contained most residences in the test sites. Listers
had to identify and add addresses for any living quarters not on the lists—for example, new
quarters created since the list was last updated or locations attached to a garage or hidden in a
commercial building—and delete any addresses they determined did not exist. Listers were to
obtain GPS readings to place addresses in the correct location on the maps and interview an
occupant of every structure to get complete address information (including mailing addresses
that differed from the unit’s physical location, such as post office boxes).

The U.S. Postal Service delivers mail to houses in Travis County but more typically to P.O.
boxes on the Cheyenne River Reservation. Most Travis County housing units have clearly posted
address numbers. Living quarters on the reservation frequently have no numbers and most roads
lack street signs; the address list identified many housing units by their physical description. In
both sites, listers had difficulty following the bureau’s canvassing procedures. Among the
problems we noted were the following:


                                                 15

U.S. Department of Commerce                                                   Final Report OIG-17524

Office of Inspector General                                                               March 2006





     ● Incorrect addresses and living quarters additions and deletions. Many housing units
       on the Cheyenne River Reservation were in areas that lacked infrastructure such as paved
       roads and clearly defined property boundaries (see figure 8), and some listers added
       structures unlikely to be living quarters              Figure 8. CRR housing units
       while missing others that should have
       been included. In Travis County, listers
       were supposed to simply verify addresses
       for unoccupied trailer lots or pads in
       mobile home parks. However, in some
       instances we observed that they
       incorrectly deleted addresses for empty
       lots or pads. The bureau’s instructions for
       handling these situations seemed clear, but
       some listers still failed to take the correct
       action.                                       Source: OIG


       Some listers did not know how to handle vacant lots located elsewhere in the community.
       On the reservation, some listers deleted locations that did not have an explicit address but
       that obviously had a trailer in the past and could easily have one again. In Travis, a lister
       recorded an empty lot with an address as uninhabitable. The bureau’s instruction manual
       stated that the delete action is only for addresses that cannot be found on the ground and
       failed to clearly define how to handle such cases. Census needs to clarify how to handle
       a greater variety of special situations and unusual local conditions, particularly for
       canvassing in rural communities. The bureau could equip the HHC with reminders or
       checklists to safeguard against such errors.

     ● Improvised procedures. Listers sometimes devised their own, often incomplete,
       approaches for interviewing occupants and, as a result, failed to obtain valuable address
       information. For example, on the Cheyenne River Reservation, listers did not
       consistently ask for a house number and street name. In both sites, they rarely asked
       whether there were additional living quarters on the property. The listers were
       encouraged to work during the day when many people were not home, compromising the
       listers’ ability to get an interview. Further, on the reservation, where most people
       received their mail via P.O. boxes, listers could not obtain mailing address information if
       no one was home. In these cases, listers entered on the HHC that the mailing address was
       different from the location address, but had to update the mailing address before they
       could move on to the next housing unit. The procedure did not cover what to do when
       this information was lacking, which caused listers to improvise by entering “n/a” in the
       P.O. box field. The bureau needs to detail the procedure on what to do when a different
       mailing address cannot be obtained.

     ● Inadequate guidance.
               Map Spots. The procedure for manually placing map spots on the handheld
               computer without the benefit of GPS is not detailed enough for listers to get


                                                16

U.S. Department of Commerce                                                              Final Report OIG-17524

Office of Inspector General                                                                          March 2006




                 consistently correct results. For example, a Travis County lister placed map spots
                 in a trailer park without GPS until it became available; then, the you-are-here
                 indicator showed that the map spots were so far off that she redid them with GPS.
                 When the GPS signal was not available, some listers would go home rather than
                 finish canvassing a block or assignment area. Providing handheld computer
                 capabilities such as automatic zooming and displaying the distance from the map
                 spot to block edges or other features could assist in producing more accurate map
                 spots.

                 E-911 Addresses. Rural areas across the nation (including the Cheyenne River
                 Reservation) have begun assigning E-911 addresses to residences to improve
                 response during emergencies. When E-911 addresses differ from a living
                 quarters’ posted address, listers were required to collect the E-911 address.
                 Collecting emergency addresses was covered in lister training and in the
                 instruction manual, but the interview procedure did not explicitly direct listers to
                 ask residents for an E-911 address, nor did the listers we observed in either site do
                 this. Capturing a different posted address or description as well would help staff
                 in the update/enumerate and nonresponse follow-up operations locate the correct
                 housing unit. The handheld computer could be programmed to prompt the lister to
                 request the E-911 address during the interview and also record a different posted
                 address or description.

C.      Identifying Complex Blocks Would Facilitate Address Canvassing

Some assignment areas contained blocks with boundaries that were
impassible, such as streams, major highways, or railroad tracks.
(See figure 9a.) Other blocks comprised multiple physical blocks13
that could not be covered by simply traveling clockwise, creating a
situation not discussed in training or the listers’ manual. (See
figure 9b.)

Following canvassing procedures for such complex blocks is
difficult, and the                                                                                     b
likelihood of       Figure 9: Complex blocks, outlined in black
missing housing       a
units or making
mistakes
increases. We
observed one
lister canvassing
a block that
contained parts    Source: American FactFinder
of several
13
  The bureau’s Geography Division uses automated rules to select physical and invisible features, based on
predetermined specifications, to determine Census block boundaries.


                                                        17

U.S. Department of Commerce                                                               Final Report OIG-17524

Office of Inspector General                                                                           March 2006




neighborhoods edged by a stream. She had to canvass the block in several sections and, in an
attempt to finish it within schedule, began traversing it counterclockwise, rather than clockwise
as required. Another lister told us that the block she was canvassing, composed of several
physical blocks, had originally been assigned to a different lister who quit because the block was
so complicated.

To minimize the difficulty of canvassing such areas, the bureau could (1) program the HHC to
show the best starting point and to guide listers along the best paths, (2) flag complex blocks that
may contain invisible boundaries, barriers, or multiple physical blocks to enable local field office
staff to assign these areas to more experienced listers and to help them plan a canvassing route,
and (3) review the block formation process and reduce block complexity where possible.

D.      Reducing Cost of Questionnaire Delivery Was Not Tested

The bureau’s methodology for counting people relies on each census questionnaire being
completed by a specific household in a known location. To accomplish this in Census 2000, the
post office delivered the census questionnaire, at a bulk rate, to over 90 million housing units
with city-style addresses that the bureau was certain would receive their mail at home. The
bureau hand delivered the questionnaires to the remaining 20 million-plus housing units assumed
to be in areas too rural for adequate postal delivery, at a total cost of $130 million or $5.53 per
housing unit.

The bureau’s Census 2000 evaluations indicated that 9.5 million14 residences that received hand-
delivered questionnaires could have received them through routine mail delivery. Given the
potential for saving tens of millions of dollars, the evaluations recommended researching the use
of post office questionnaire delivery, especially outside cities in the Southeast and Midwest and
in entire states such as Iowa, Wisconsin, Michigan, Ohio, North Carolina, and Virginia.

The bureau needs to determine what addresses are sufficiently clustered to shift bureau delivery
of questionnaires to postal service delivery before the 2010 census because they involve systems
and procedures that could cause some people not to receive a questionnaire or to receive more
than one. If such areas can be identified, they should be included in the 2008 dress rehearsal.

Research would lead to methods for identifying other places where the post office can deliver
census questionnaires by:

     •	 Finding bureau delivery areas with sufficient postal service address data. The
        bureau routinely updates its master address file from Postal Service files. Since Census
        2000, the bureau has started labeling blocks as containing only, some, or no postal

14
  In evaluating Census 2000, the bureau reported that 22 million housing units were listed in the address listing
operation, all of which would receive hand-delivered questionnaires. The bureau also reported that approximately 43
percent of these were also on an early postal service address file. From this information, we calculated that 9.5
million residences were capable of receiving the questionnaire by mail. See U.S. Census Bureau, January 2002. The
Address Listing Operation and Its Impact on the Master Address File, Census 2000 Evaluation F.2. Washington,
D.C.: Census Bureau.


                                                        18

U.S. Department of Commerce                                                  Final Report OIG-17524

Office of Inspector General                                                              March 2006




       service addresses. The bureau needs to study how this block characterization could be
       used to find areas with sufficient postal data to potentially shift from bureau to postal
       delivery.

   •   Strengthening address canvassing procedures to collect all city-style addresses.
       Although address canvassing procedures in the 2006 test had listers indicate whether the
       mailing and location addresses were the same, it did not emphasize collecting city-style
       address in rural areas. To expand postal delivery, the bureau needs to require that listers
       collect city-style addresses in areas where the bureau previously delivered the
       questionnaire. This would allow the bureau to recognize where the post office delivers.

   •	 Determining how the size of areas with different delivery methods affects efficiency.
      The bureau has said that, for efficiency, single blocks or small areas of bureau and postal
      questionnaire delivery should be avoided. Therefore the bureau needs to determine the
      smallest size a canvassing and enumeration area can be for procedures to remain
      efficient.

The dress rehearsal is the only remaining operational testing opportunity before 2010. The
bureau recently tasked a working group to review different enumeration methods, including
approaches for increasing postal delivery. The bureau will need to sufficiently test methods it
intends to use for determining new postal delivery areas during dress rehearsal.

RECOMMENDATIONS

The Census Bureau director should direct appropriate management officials to take the following
actions:

   1.	 Determine why the TIGER database contains nonexistent roads and develop approaches
       to eliminate such roads nationwide from the database by the 2010 census.

   2.	 Refine lister training to provide clear and effective instruction on when and how to
       correct maps and adjust routes.

   3.	 Provide computer prompts to aid listers in following procedures for deleting addresses,
       obtaining complete address information during the interview process, placing precise
       map spots, and canvassing complex blocks efficiently.

   4.	 Develop and implement a mechanism for alerting local Census officials about assignment
       areas that may be difficult to canvass.

   5.	 Review the block formation process and reduce block complexity where possible.

   6.	 Determine what addresses are sufficiently clustered to shift bureau delivery of
       questionnaires to postal service delivery, and include such areas as trials in the 2008 dress
       rehearsal.


                                                19

U.S. Department of Commerce                                                    Final Report OIG-17524

Office of Inspector General                                                                March 2006





Synopsis of Census’s Response

In its response to our draft report, the Census Bureau generally concurred with the finding and
recommendations in this section and, in some instances, provided actions to be taken. For the
first recommendation, the bureau stated that nonexistent roads exist due to the various sources
used to update the database over the years. Census noted that the address canvassing operation
for the 2010 census will be the mechanism used to identify and flag for deletion any nonexistent
roads currently in TIGER. For the second recommendation, the bureau agreed the lister training
should provide clear instruction, but stated that the capability to update maps was not
implemented on the HHC for the 2006 test, and that listers were not trained on this function. The
bureau agreed with, or agreed to consider, the remainder of the recommendations, although in
response to our recommendation to develop and test methods for identifying additional areas for
post office questionnaire delivery, Census indicated that it may be possible to use the 2010
address canvassing operation to capture the data needed. The bureau noted that just because a
structure has a street name and house number does not necessarily mean the post office
recognizes and uses the address for mail delivery. It also stated that it is not operationally
feasible to mix postal service delivery and Census hand-delivery in the same block or ZIP code.
An interdivisional team within the Census Bureau is examining this issue.

The bureau made several other specific comments about this finding in its response. With respect
to Figure 4 (page 13), the bureau stated that the road apparently was not realigned and that
unambiguous procedures for handling such situations are probably needed. It also stated that the
realigned TIGER is fixing many such problems. However, the bureau questioned how having
GPS coordinates made mapping issues worse. The bureau also thought our draft report reflected
confusion between assignment areas and blocks. It stated that Census does not create blocks, that
a block cannot be composed of multiple blocks, and that the bureau does not have a block
formation process or have anything to do with block complexity. We disagree, as explained in
more detail below under the recommendation 5 discussion. Finally, the bureau found our
conclusion about a Census 2000 evaluation finding that 9.5 million addresses that received hand-
delivered questionnaires could have received them through routine mail delivery was misleading
because it does not take into account the fact that these addresses are not necessarily clustered. It
questioned whether splitting the response for delivering census forms would be the best way to
conduct the census for a block with mixed mail and hand-delivery.

OIG Comments

As we stated in the above synopsis, Census said that the address canvassing will be the primary
mechanism used to identify and flag for deletion any nonexistent roads. However, we suggest
that prior to the address canvassing operation, the bureau implement an automated process to
eliminate some of the nonexistent roads, which could reduce some of the time-wasting confusion
during the costly address canvassing operation. Specifically, the automated block formation
process could (a) change the designation of some boundary features that have historically been



                                                 20

U.S. Department of Commerce                                                       Final Report OIG-17524

Office of Inspector General                                                                   March 2006




erroneously labeled as roads, (b) remove planned but as-yet unbuilt roads as boundaries, and
(c) improve the rules for connecting roads.

According to Geography Division officials with whom we shared our observations, certain block
boundaries, particularly in rural areas, may have been erroneously designated as a road because
they appeared as roads in the original sources used to update the maps; however, these roads may
not have appeared in the recent sources used to improve map accuracy. Consequently, the
automated block formation process, which is discussed in more detail below, could remove
features such as unimproved roads and fence lines from consideration as block boundaries, as
they serve as poor block boundaries and ultimately hamper the operation. In addition, as a result
of the recent work to improve map accuracy, roads that are planned but not yet built are found in
growing urban areas. The bureau does not consider future potential roads as errors and adds them
to the map database. We believe the bureau should explore the feasibility of screening out
planned roads during the automated block formation process as well as improve the procedures
for identifying them during the address canvassing operation. Finally, the rules for connecting
roads should be reviewed, as we identified instances where seemingly contiguous blocks
contained nonexistent connecting roads.

We also take exception to the bureau’s assertion that the capability to update maps was not
implemented on the HHC for the 2006 test, and that listers were not trained on this. While it is
true that problems with the handheld computer necessitated dropping the ability to add roads,
listers were in fact taught, during a 45-minute lesson plan on the third day of training, how to
select a street, correct a street name, delete a street, and restore a deleted street. In addition, as we
report on page 23, some streets were deleted, thereby substantiating that some listers understood
and followed the training instructions. With respect to Figure 4, the purpose of that illustration
was to show an unaligned street and to demonstrate lister reliance on the GPS navigation
instrument, rather than ground observation. Such map errors will occur, and listers must be
adequately trained to recognize and correct errors and, equally important, to adjust their route
when it does not correspond exactly with the GPS navigation instrument.

We also disagree with the statement made in its response that Census “does not create blocks.”
We note that the bureau agreed with recommendation 5, to review the block formation process
and reduce block complexity. This recommendation is directed towards improving the
predetermined specifications and criteria used to automatically create blocks. The bureau’s
Geography Division uses rules, based on predetermined specifications, to establish Census block
boundaries. A block must meet specific criteria (size, shape, and boundary feature type) to
qualify as a block. In the event the block does not meet the predetermined standards, additional
prioritized criteria are used to merge adjacent areas to produce a qualifying block. It is this type
of merging that can potentially create what we describe as “a block composed of multiple
blocks.” Moreover, it is this block formation process and resulting complexity that we believe
should be minimized, and to the extent that complex blocks will occur, new procedures and
training put in place.

We also recommended that the bureau develop and test methods for identifying additional areas
for post office questionnaire delivery, and include such areas as trials in the 2008 dress rehearsal.


                                                   21

U.S. Department of Commerce                                                Final Report OIG-17524

Office of Inspector General                                                            March 2006




Because, as the bureau’s response points out, changing the questionnaire delivery from bureau to
postal delivery is so much more complex than simply matching bureau and postal addresses,
strategies to reduce questionnaire delivery costs should be tested in advance and not
implemented for the first time in the decennial.




                                               22

U.S. Department of Commerce                                                               Final Report OIG-17524

Office of Inspector General                                                                           March 2006




III.	   NEW VERIFICATION PROCESS APPEARS FEASIBLE, BUT QUALITY
        CONTROL TRAINING AND INFORMATION SHARING NEED
        IMPROVEMENT

To ensure a 97 percent accuracy rate for address canvassing, the bureau conducted a quality
control field check of every assignment area after the initial canvassing.15 In 2000, a similar
dependent quality control (DQC) operation was performed, except that the same staff conducted
both the initial listing and the quality check. For the 2006 test, a separate staff of listers was hired
and trained for the quality control function. In DQC, a quality control lister compares what he or
she observes to a random portion of the production lister’s work. If a certain number or type of
error occurs, then someone other than the original production lister recanvasses the entire
assignment area.

In addition to performing its typical DQC review, the bureau is testing, for the first time, having
a quality control lister check all housing unit deletions and house number changes made by the
production lister. All housing unit deletions undergo a second, on-the-ground inspection to
determine if the housing unit should be removed from the master address file. The bureau wants
to avoid incorrectly eliminating and thus not enumerating a housing unit. In the past, this delete
verification procedure occurred in later operations, such as nonresponse follow-up. However,
automation allows deletions and housing number changes made during production listing to be
quickly reviewed to confirm the changes concurrently with the quality control review.

Census believes that verifying deletions and changes during the same operation will improve the
quality of the address list and therefore reduce enumeration inaccuracies. Because fewer
questionnaires will be sent to nonexistent or duplicate addresses, the nonresponse follow-up
workload and costs should be reduced.

QC listers perform the quality control review using the handheld computer. QC listers select the
assignment area to be checked, open the block, and canvass a sample of addresses (see footnote
15) beginning at an automatically generated random starting place as well as any other address
records flagged for verification. Once complete, the software generates the decision to pass or
fail the assignment. Failed assignment areas were recanvassed. Census prepared a management
report that provided feedback to local staff on lister errors. LCO staff were to retrain or terminate
listers as necessary. The end result was to be a more accurate operation and address list.

Despite technical problems with the HHCs, quality control listers were able to successfully
verify address deletions and house number changes during the address canvassing operation. But
weaknesses in training and management reporting, as well as the bureau’s failure to analyze QC
data during the operation, undercut the overall success of the quality control process.




15
  To achieve this level of accuracy, listers were given a random starting point and canvassed 12 consecutive
housing units in Travis County and 8 at the Cheyenne River test site for each assignment area.


                                                        23

U.S. Department of Commerce                                                                Final Report OIG-17524

Office of Inspector General                                                                            March 2006




A. 	    Quality Control Training Does Not Sufficiently Prepare QC Listers

The time allotted for training quality control staff for address canvassing appeared insufficient to
adequately prepare them for all aspects of the QC process. The bureau developed the roughly 30­
hour class for quality control listers by adding a 3-hour QC segment to the end of the production
lister training curriculum. After training QC crew leaders and assistants, local Census staff at
both test sites realized that teaching QC listers their specific duties required more than 3 hours.
The Travis County LCO doubled the QC-specific instruction to 6 hours and increased total
training time by about 10 hours. 16

Even with the additional time, instructors in Travis County rushed to complete the classes on
schedule, sometimes could not answer trainees’ questions because of time constraints, and
skipped over the lesson on misplaced map spots, suggesting that trainees review this information
on their own. Instructors could not give trainees the benefit of simulating a QC lister exercise in
the field, as was done in the production lister training class. In the end, QC listers said they felt
unprepared and confused after training.

The crew leaders and crew leader assistants who taught the quality control lister class had only
received their training 1 week earlier. They reported feeling they initially knew the material, but
once they began instructing the class, they were confused and had difficulty explaining the
material. We observed that at times instructors gave different or conflicting answers to the same
questions asked by trainees.

The bureau needs to consider alternative training approaches for QC listers. For example, rather
than covering all production lister duties and briefly addressing QC lister responsibilities at the
end of the class, Census could develop a shorter, succinct lesson on the essential points of
production listing that QC listers need to know to do their jobs. Or quality control responsibilities
could be integrated throughout the training. If the bureau deems that QC listers need to be taught
all production lister duties, it could recruit QC listers from the pool of production listers—who
are already well-versed in production duties—and give them separate training that covers only
quality control. Finally, as addressed in more detail in chapter V, the bureau should consider
enhancing its verbatim training approach with visual aids and other instructional devices to
promote greater comprehension of the material (see page 35).

B. 	    Poor Communication and Inadequate Management Reports Weakened Quality
        Control

When an assignment area failed the quality control check, local census office staff had only two
sources of information as to why: the QC Check Status Report (DD-959) and communication
with headquarters. Both of these were inadequate in the 2006 test, leaving LCO staff unable to


16
  This was observed by OIG and reported by local Census officials at the Travis County test site. We did not
observe QC lister training at the Cheyenne River Reservation, but local Census officials told us they thought more
time should be allotted to the training and that QC duties should be integrated throughout the training, not just
addressed at the end.


                                                        24

U.S. Department of Commerce                                                                  Final Report OIG-17524

Office of Inspector General                                                                              March 2006




determine whether the failures were due to lister error or software errors, such as the GPS
software causing map errors or post office box edits incorrectly programmed as edit errors.

The QC Check Status Report, which was to be given to the quality control and production
managers at least twice a week, was intended to collect information to evaluate address
canvassing. The report did not provide sufficient detail to explain why an assignment area failed.
It simply listed four major categories of quality control failures—map errors, omission errors,
action code errors, and editing errors17—but provided no analytical or other data to enable
managers to understand why the problems occurred and how to eliminate them. Regional and
local staff with whom we spoke generally felt this report, as designed, was not useful.

Figure 10: Quality Control Management Report




Source: U.S. Census Bureau


Because QC and production managers did not understand why certain assignment areas were
failing the quality check, and did not know which errors constituted a failure, they could not
determine what the listers were doing wrong. For example, headquarters informed local and
regional Census staff for the Cheyenne River Reservation that the site’s QC failure rate was high,
but offered no explanations, leading local staff to make incorrect assumptions about what caused
the failure and limiting their opportunities to correct problems.

Census headquarter officials agreed that the QC Check Status Report was inadequate and that the
report should provide more feedback. Census also did not analyze QC data as it came in, and so
it could not provide specific details about the problems QC listers were finding or how to fix
them. Had headquarters analyzed the errors sooner it could have interviewed local census staff to
identify any unique circumstances that caused an assignment area to fail. By waiting, the bureau
missed the opportunity to obtain immediate feedback, quickly understand the source of the
errors, and determine if QC or listing procedures needed adjustment during the operation to
improve the listing process and lister performance.




17
  Types of errors: a map error occurs when a map spot is placed incorrectly on the map; an omission error when a
housing unit is not added; an action code error when an incorrect action code (e.g., delete, verify, or duplicate) is
used; and an editing error when incorrect changes or edits are made to an address record.


                                                          25

U.S. Department of Commerce                                                     Final Report OIG-17524

Office of Inspector General                                                                 March 2006




C. 	      Including Interviewee Information on the HHCs Would Facilitate the Quality
          Control Operation

Current address canvassing procedures require production listers to visit every housing unit in
their assignment area, interview residents, and make observations to verify the address and other
housing-related information. During quality control, the QC lister reviews a sample of address
records to verify that the production lister updated the address and map correctly via observation
and personal interview. Currently it is impossible to determine if either lister obtained
information from an interview with a knowledgeable person. The accuracy of the address
canvassing operation could be enhanced if the handheld computers captured whether the
information was obtained by interview or only by observation.

Sometimes Census staff visit residents several times during various operations—a practice that
may be considered burdensome to the public. We spoke with five residents from both test sites
who had been visited more than once by listers, and there are likely others who were contacted
multiple times. Capturing the interview information on HHCs might reduce the need for multiple
visits to households because, for example, procedures could be adjusted to collect telephone
numbers and subsequent follow-up could be conducted by telephone.

RECOMMENDATIONS

The Census Bureau director should direct appropriate management officials to take the following
actions:

       1.	 Design a comprehensive, targeted training course for QC listers that imparts the skills and
           knowledge necessary.

       2.	 Disclose enough information about quality control failures to production managers so
           that they can take timely action to improve their listers’ work during address canvassing.

       3.	 Consider equipping handheld computers with the capability to identify whether an 

           interview was conducted to facilitate quality control. 




Synopsis of Census’s Response

The Census Bureau generally agreed with our recommendations, stating that it will continue to
try to improve training materials for the 2010 Census based on lessons learned from the 2006
test. The bureau also appeared satisfied that it had disclosed enough information to LCO
managers regarding quality control failures, but stated that it will review procedures and make
improvements where needed. The response also stated that any QC Check Status Report (DD­
959) inadequacies did not create uncertainty as to whether or not the listers committed the errors
because although the report lacked details regarding the precise errors made by listers, the design
of the QC report was such that all four error categories provided on the report were lister errors.


                                                   26

U.S. Department of Commerce                                                     Final Report OIG-17524

Office of Inspector General                                                                 March 2006




However, the bureau agreed that the QC report was inadequate for providing the level of detail
the LCO staff needed for effective feedback and retraining purposes. The bureau strongly
objected to the statement in our draft report that its officials did not share the QC failure criteria
with regional and local staff because it did not want their knowledge of such criteria to affect the
QC results. While Census admitted withholding this information from listers, it stated that such
information was never withheld from the management chain.

Finally, the bureau said it would consider, resources permitting, equipping handheld computers
with the capability to identify whether an interview was conducted for the purpose of resolving
discrepancies, but disagrees that it will reduce the need to contact the house more than once. In
fact, the bureau contends recording such information would require a longer QC process and
would require callbacks, which would definitely decrease the productivity of the DQC operation.

OIG comments

Regarding the discussion of the sharing of QC failure criteria with regional and local staff in our
draft report, we were told at a September 9, 2005, meeting with Census headquarters officials
that they deliberately kept the specifics of the quality control process, such as what exactly
constitutes an error, from the regional and local staff because they felt this knowledge might
influence the QC results. However, we later learned that at some point during the operation,
managers were made aware of the QC failure criteria, so we have deleted this point from the
final report.

We disagree that the QC Check Status Report did not create uncertainty as to whether or not the
listers committed the errors. Because of the extensive software problems, it appeared that some
errors were caused not by listers, but by faulty software. For example, problems with the GPS
software could cause map errors and post office box edits could have been incorrectly
programmed as edit errors.

We concur with the bureau that recording interview occurrence would not necessarily increase
the efficiency of the operation, and changed the text in the body of the report to reflect that
accuracy would be the primary benefit. Reducing the need to contact households more than once
was also eliminated from the recommendation. However, we want to emphasize that recording
that an interview occurred and possibly collecting limited interview information would also
allow for procedures to be altered. For example, if household telephone numbers were obtained,
subsequent telephone interviews could be made to resolve discrepancies, conduct quality
assurance checks, and obtain information for future operations. Telephone follow-up, if feasible,
would serve to increase efficiency.




                                                  27

U.S. Department of Commerce                                                                Final Report OIG-17524

Office of Inspector General                                                                            March 2006




IV. 	   MORE FOCUS ON OUTREACH IS NEEDED

In the 2000 census, the bureau used outreach and promotion to develop community support and
participation. Activities included a paid advertising campaign, a partnership program,18
promotions and special events, and a media relations effort,19 all of which sought to (1) increase
the overall census response rate, (2) reduce the undercount of racial and ethnic groups and other
hard-to-enumerate (HTE) populations, and (3) communicate a consistent message. As we have
reported in the past, most agree that Census 2000 was a success in terms of raising awareness,
particularly among HTE populations.20 But according to the bureau, it is difficult to show a
direct link between outreach activities and increased response, particularly among American
Indians and Hispanics.

In choosing an American Indian reservation and a county with a large Hispanic population as test
sites, Census had a unique opportunity to assess new outreach methods. The bureau set out to
establish and evaluate the effectiveness of a tribal liaison program at the Cheyenne River
Reservation site. It also hired partnership program staff for both sites. However, the materials
for the tribal liaison staff are late, and we found that methods to measure the success of the
partnership program were not explored. In addition, we noted that a fully functional partnership
database may not be available for the 2010 decennial operation.

A. 	    The Revised Tribal Liaison Program Handbook Was Not Finished in Time for
        Address Canvassing

The Cheyenne River Sioux tribal chairman designated an individual to serve as the tribe’s liaison
with the bureau. The liaison is the main point of contact for the bureau on matters relating to the
reservation and is not a paid Census employee. During address canvassing, the tribal liaison
helped Census (1) secure involvement of community-based groups to promote address
canvassing, (2) compile information about benefits to the tribe from having complete and
accurate census data, and (3) identify community events at which the bureau could promote the
census and related job opportunities.

One of Census’s 2006 test objectives is to assess the effectiveness of the Tribal Liaison Program
and obtain the liaison=s feedback on a revised Tribal Governments Liaison Program handbook,
which contains information about the confidentiality of census information and activities for
increasing tribal participation in the census. The bureau had not finished revising the handbook
in time for address canvassing so it could not get input from the liaison. In addition, the liaison

18
   This effort, considered critical by the Census Advisory Committee, places partnership specialists in each LCO to
develop working relationships with governmental and nongovernmental units, community-based organizations,
faith-based organizations, schools, media, and businesses in order to increase awareness of and support for census
activities (e.g., recruiting, address canvassing, enumeration). Members of the advisory committee are drawn from
private sector, academic, and nongovernmental organizations; Census regional management; and other groups.
19
   The mailing strategy (e.g., sending pre and post notices, replacement questionnaires, envelope language) is
considered another component of outreach and is being tested in other survey (versus site) tests for the decennial.
20
   U.S. Department of Commerce Office of Inspector General, Spring 2002. Improving Our Measure of America:
What Census 2000 Can Teach Us in Planning for 2010, OIG-14431. Washington, D.C.: Department of Commerce
OIG, iii.


                                                        28

U.S. Department of Commerce                                                               Final Report OIG-17524

Office of Inspector General                                                                           March 2006




has had to rely on the materials used in 2000, rather than updated information. To meet its
objective, Census must complete the handbook revision, obtain input from the liaison before the
end of the test, and determine if the program was hampered because older materials were used by
the liaison.

B.      Evaluating Partnership Methods and Messages Was A Missed Opportunity

The partnership is the primary vehicle for conducting outreach in the 2006 test; the partnership
program pairs partnership specialists with local census offices, and together they work with state,
local, and tribal governments; community groups; nongovernmental organizations; local media;
and the private sector. Organizations that partner with the bureau help publicize the census and
sponsor educational and other community activities to promote participation. The Cheyenne
River and Travis County offices each hired one partnership specialist for the 2006 test.

In Census 2000 the bureau hired some 690 specialists, who partnered with more than 140,000
organizations. It spent $142.9 million on the program (2 percent of the total cost of the 2000
decennial).21 Census expects to implement and fund a similar program for the 2010 decennial. To
justify such a high cost, the bureau must see results—namely, a measurable increase in the
response rate among HTE populations.

Following the 2000 decennial, the bureau commissioned three major research evaluations of the
partnership and marketing programs.22 In a summary of the evaluations, the bureau states that the
success of the outreach activities is “intuitively compelling,” however a direct connection
between the outreach and response rates is difficult to quantify. For example, one of the
evaluations surveyed partners who reported that both the partnership activities and census in
schools23 programs were relatively successful in reaching hard-to-enumerate populations. Still,
Census has no way to quantify the number of individuals reached or increases in participation
rates. The only suggestion made by the authors of the evaluation was to conduct a
comprehensive “case study” approach using both qualitative and quantitative methods to assess
the reach of local partner activities.

In the 2006 test, the bureau had an opportunity to try new methods for increasing response
among American Indians on the Cheyenne River Reservation and Hispanics in Travis County,
which make up 74 percent and 26 percent, respectively, of the populations in the sites. Our
discussions with Census Advisory Committee members, Cheyenne River Sioux tribal officials,
and partnership specialists at both sites revealed that a key concern impacting residents’
willingness to respond was whether collected information would be shared or used against them.
Census did not incorporate any outreach research questions into the 2006 test, thereby missing an

21
   Costs are from October 1997 through September 2000, with $65.1 million spent on salaries and benefits and the 

remainder for nonpayroll expenditures such as travel, training, supplies, and postage. From Review of Partnership

Program Highlights Best Practices for Future Operations, GAO-01-579, August 2001. 

22
   U.S. Census Bureau, February 2006. Evaluations of the Census 2000 Partnership and Marketing Program, 

Census 2000 Topic Report No. 6. Washington, D.C.: Census Bureau. 

23
   A program that provided teachers with interactive lesson plans to help students understand the importance and 

benefits of the census for the purpose of promoting awareness and encouraging household participation.



                                                        29

U.S. Department of Commerce                                                                 Final Report OIG-17524

Office of Inspector General                                                                             March 2006




opportunity to assess key aspects of the partnership program, perhaps establish a methodology to
quantify its benefits, and evaluate broader communication strategies for reaching the two hard-
to-enumerate populations that resided in the sites.

The bureau claims that timing and test design limitations precluded assessment of broader
communication strategies, and that the earliest chance for evaluating such strategies will be the
2008 dress rehearsal.24 If an American Indian reservation is not chosen as a dress rehearsal site,
then the opportunity for assessing new outreach methods for this population will be lost.

C.       A Tool for Tracking Partnership Information Should Be Available in Time for 2010

The database used to track all external partnerships and customer relations in 2000 was replaced
by a Web-based system to better allow headquarters and regional field staffs to track, plan,
strategize, and analyze partnership and data services.25 The database, known as PRISMS,26 was
also supposed to provide a cost-effective means for (1) communicating with partners via e-mail,
fax, and postal correspondence during the decade between decennials and (2) seeking their
support for nondecennial activities, such as the American Community Survey. (This
communications activity had been requested by census advisory committees after the 2000
decennial.)

Census headquarters officials told us that lack of funding prevented completion of the
communication functionality. PRISMS’ inability to send mass communications has not inhibited
the 2006 test—the test sites are relatively small and partnership specialists are familiar with the
organizations and populations in their community. Of greater concern is the bureau’s
characterization of the PRISMS system as “limping along” and in such poor shape that it cannot
support partnership activities beyond a few test sites. Only a few locations are involved in this
test and the 2008 dress rehearsal, so PRISMS should be operable. But as more partnership
specialists are added to the system, Census reports that it will become unstable and stop working.
Census officials confirmed that PRISMS will not be able to support the partnership effort when
the 12 regional partnership coordinators, brought on board in 2007, begin work on the 2010
decennial.

Census does not plan to use PRISMS in 2010. It has included a modified/expanded PRISMS-
type system in the FDCA contract, but that system will not be in place for the 2008 dress
rehearsal and is secondary to other contractual priorities such as development of HHC
capabilities. Partnership coordinators hired in 2007 will not have a partnership database to work
with and the bureau does not have a contingency plan for tracking partnership efforts for the
2010 decennial, should the PRISMS replacement not materialize. The inability to access a
database of 140,000 partners from the 2000 census, catalog new partners and commitments, and
communicate with partners efficiently is a serious problem, given the impact that partners can

24
   Some questions, mailing package design features, and deadline language, also considered to be outreach activities, 

are being tested in other survey (versus site) tests.

25
   Data services refers to regional and headquarters efforts to educate partners on how to access and use census data

throughout the decade.

26
   PRISMS is not an acronym and has no specific meaning. 



                                                         30

U.S. Department of Commerce                                                   Final Report OIG-17524

Office of Inspector General                                                               March 2006




have on improving participation of hard-to-enumerate communities. A useable partnership
database, or another resource to facilitate tracking partnership information, should be in place for
the 2010 decennial.

RECOMMENDATIONS

The Census Bureau director should direct appropriate management officials to take the following
actions:

   1.	 Complete the Tribal Governments Liaison Program handbook in time for the tribal
       liaison to review it and suggest changes prior to the end of the 2006 test.

   2.	 Develop ways of measuring and evaluating the impact of partnership activities.

   3.	 Ensure that a useable partnership database, or another resource to facilitate tracking
       partnership information, is in place for the 2010 decennial.



Synopsis of Census’s Response

The Census Bureau agreed to complete the Tribal Government Liaison Program handbook prior
to the end of the 2006 test, if possible, and said it planned to share the handbook with
stakeholders before it is finalized. The bureau reiterated the difficulty of measuring and
evaluating the impact of partnership activities, but stated that it would continue to explore ways
to do so. Census said that both the direct and indirect benefits of partnership efforts can only be
measured during an actual census and would have to take advertising and promotional efforts
into account. The bureau also stated that measuring partnership activities using a controlled
experimental design during a census cannot be done because of the actual, or perceived,
differential effects on census coverage that might result. Finally, the response to the final
recommendation, implementing a partnership database for the 2010 decennial, indicated that this
effort is underway and will continue.

OIG comments

Although Census generally agreed with our recommendations, the response does not indicate any
tangible actions that will be taken to better measure the impact of partnership activities. Census
needs to fully address the recommendations in its action plan, citing specific actions it will be
taking, including a timeline for such actions.




                                                31

U.S. Department of Commerce                                                               Final Report OIG-17524

Office of Inspector General                                                                           March 2006




V. 	    CENSUS SHOULD IMPROVE GUIDANCE FOR OVERTIME AND CELL
        PHONE USE AND TEST NEW APPROACHES TO TRAINING

Planning for the 2010 census offers new challenges, as the automation of key field operations is
a new feature of this decennial and uncharted territory for the bureau. We assessed aspects of the
administrative and logistic support for the 2006 test and found weaknesses in overtime and cell
phone reimbursement policies and training guidance and implementation.

A. 	    Census Needs to Clarify Its Overtime Policy and Improve Its Cell Phone
        Reimbursement Policy

During the decennial, overtime and cell phone costs can quickly grow out of control if not
properly managed. Census structured field positions for all decennial operations in an effort to
enable employees to complete their assignments within a 40-hour workweek. It also established a
cell phone reimbursement policy designed to keep those costs in check.

We found problems with the implementation of the overtime policy. For example, in Travis
County, staff construed the overtime policy to mean overtime was forbidden, which was not the
intention and may have hampered the effectiveness of the operation. As for cell phone use, the
policy seems unduly burdensome to implement and does not adequately reimburse employees
who make census-related calls on their personal cell phones. We believe Census should revisit
both policies and possibly clarify or modify them.

The Overtime Policy Needs Clarification

Census has many procedures in place to make employees aware of the overtime policy. Both
supervisory and nonsupervisory personnel must sign overtime policy agreements, which define
overtime as hours that are “ordered and approved in advance” and exceed 8 hours a day or 40
hours a week. The agreement also states that an employee who works overtime without obtaining
prior approval is subject to termination. Field operation supervisors, crew leaders, and listers are
told numerous times during training that employees may not work more than 8 hours in any one
day, or more than 40 hours in any weekly pay period unless specifically authorized to do so in
advance or because the overtime was caused by “unavoidable circumstances.”27

It is our understanding that the current policy is needed so that (1) supervisors, not employees,
determine whether overtime is necessary, (2) all overtime is claimed and paid, and (3) the rules
governing overtime are straightforward and nondiscriminatory. The bureau recognizes that
extenuating circumstances may sometimes make overtime unavoidable, and in fact necessary,
particularly for field supervisors, who may be called on to respond to unusual situations in the
field. However, Travis County field staff did not make the distinction between approved versus
unapproved overtime; consequently, working overtime was synonymous with getting fired. No
employees requested overtime and no approved overtime occurred.


27
  Unavoidable circumstances include weather-related problems such as a blizzard, flood, hurricane or if an
employee is involved in or delayed by an accident. Traffic alone is not considered an unavoidable circumstance.


                                                        32

U.S. Department of Commerce                                                                  Final Report OIG-17524

Office of Inspector General                                                                              March 2006




We identified several areas where the implementation of the overtime policy needs strengthening
and offer the following suggestions:

•	 Underscore that overtime is allowed and ensure that the policy is stated consistently. In
       Travis County, employees we spoke with appeared not to understand that they could request
       overtime. Various bureau manuals gave slightly different statements of the overtime policy:
       training guides for field operations supervisors and office clerks stated that employees will be
       terminated on the first occurrence of unapproved overtime, the LCO administrative manual
       allowed for a warning on the first occurrence, and all other manuals stated that employees
       would be subject to termination for working unapproved overtime absent evidence of
       unavoidable circumstances, but did not explicitly state that they would be let go.

•	 Budget and manage overtime as a necessary part of the operation. Recognizing that
       there are situations when overtime is necessary, those closest to the operation should be
       allowed to budget and manage overtime. We suggest the bureau test an overtime pool
       approach—that is, provide local office managers with a pool of overtime hours to be used to
       effectively manage the operation.

•	 Give straightforward guidance on the supervisory chain of command. During address
       canvassing, LCO managers had authority to approve overtime, with the regional office
       providing oversight.28 Census needs to issue guidance describing who employees should
       contact for overtime approval and stipulating that some approving official must always be
       available: for example, assistant managers, who work 40 hours Monday through Friday,
       would not be available to approve overtime on Saturday, so someone else must be
       designated. Census guidance must establish a chain of command that covers all potential
       working hours.

•	 Adequately train supervisors about when and how to approve overtime. The process for
       requesting and approving overtime is not taught during classroom training. Field operation
       supervisors and crew leaders receive a self-study assignment on documenting employee
       performance and requesting overtime, but there is no comparable assignment for the listers. It
       would be useful if staff training addressed appropriate overtime situations and the mechanics
       of requesting overtime, including, for example, if an employee can request and receive
       approval by telephone.

•	 Tabulate and display hours worked on the HHC. For nonresponse follow-up, the bureau
       is testing automation of daily pay and work records on the HHC. Timekeeping problems,
       such as addition errors, would be minimized if hours were automatically calculated and
       displayed on the HHC and employees received automated reminders of how many hours
       they’ve worked in a given pay period.

•	 Extend allowable daily work hours from 8 to 10. In rural areas such as Cheyenne River, it
       may take a significant amount of time to travel to an assignment area and canvass a

28
     During the 2000 census, regional offices were responsible for approving all overtime requests.


                                                           33

U.S. Department of Commerce                                                  Final Report OIG-17524

Office of Inspector General                                                              March 2006




   geographically large block, meet with the crew leader, and drive home. We observed two
   listers at the Cheyenne River test site who did not complete their assignments so as not to
   exceed the 8-hour restriction and had to make the same lengthy trip the following day to
   finish the work. Census officials reported that they are considering allowing 10-hour days.

•	 Account for all lister time. The bureau requires daily HHC transmissions, yet it has no
   written guidance specifying how or whether employees should charge the time spent
   preparing to transmit. Listers received inconsistent instructions about the amount of time to
   charge. Some crew leaders advised them to claim 15 minutes, others said 5 minutes, and still
   others gave no guidelines. Employees need clear, consistent written guidance on how to
   account for this time to ensure they receive proper credit and do not inadvertently claim
   unapproved overtime.

It is important to ensure that the overtime policy is understood and well implemented. We
recommend that the bureau address some of the implementation problems we identified during
the address canvassing operation of this test.

Cellular Telephone Policy Does Not Fully Reimburse Users

The bureau’s reimbursement policy for cell phone calls states that employees will be reimbursed
for Census-related calls made on their personal phones provided the minutes used were not
covered by the free minutes in a user’s payment plan. Employees must provide a detailed billing
statement that highlights official Census calls. Reviewing and processing these bills for
reimbursement takes up large amounts of staff time.

In both the 2004 test and the 2006 address canvassing operation, field supervisors often used
more minutes than were eligible for reimbursement. Many reported having to pay for personal
calls because Census-related calls used all of their plan minutes. In addition, employees could
not document and seek reimbursement for bureau-related calls that did not have a telephone
number associated with them on the bill.

Cell phone usage may not have been an issue with the 2000 Census; however, with the growth
and increasing reliance on cell phones, we question whether this policy will be manageable for
the 2010 decennial. Census may find it more efficient to rent or purchase cell phones for some of
its employees to use and negotiate plan rates at the regional or national levels, or set a specific
dollar allowance to cover cell phone use.




                                                34

U.S. Department of Commerce                                                             Final Report OIG-17524

Office of Inspector General                                                                         March 2006




B. 	      Failure to Test New Training Methodologies and Give Adequate Guidance
          Weakened Address Canvassing

The bureau used its traditional recruiting and hiring practices to build a temporary workforce. It
continued its use of verbatim training, whereby recently trained staff read the training manual
word-for-word to their crew. Past evaluations of this approach have questioned its use. In the
2006 test, the bureau had the opportunity to enhance verbatim training or try different
approaches, but it did not.

Census Should Test Training Enhancements in Future Operations

For the 2004 test, Census hired a contractor to evaluate the training effort for that operation29 and
our office assessed training as well. We both found that trainees had difficulty following HHC
instruction and suggested several improvements. The only apparent change in 2006 was that the
classroom schedule was modified from Monday through Friday to a Friday, Monday through
Thursday timetable. The second Friday was an optional training day.

We urge the bureau to incorporate some of the following approaches in future operations and
measure their impact on trainee comprehension and performance:

•	 Use of media. For future training, the bureau should consider using a mix of DVD, VCR,
       and internet media for homework assignments and other portions of the class.

•	 Visual aids. Some class participants had trouble following the verbatim instructions and
       might have benefited from the use of visual aids.

•	 Realistic GPS training. Instead of placing map spots on a blank HHC screen, listers would
       benefit from using the GPS you-are-here indicator to place a map spot on an HHC map.

•	 Role play. Greater use of role play, such as practicing interviews to obtain a location
       address, P.O. box, or other mailing information, would have given listers simulated, hands-on
       experience performing their duties.

Improvements Are Needed In Other Aspects of Training

Census gave no guidance for accommodating evening classes. Classroom training materials
are geared toward daytime classes with an estimated 35 hours of instruction. The four Travis
County evening classes attempted to cover the same material in fewer hours, resulting in training
that was rushed and confusing, and leaving many trainees with unanswered questions. Census
needs to develop a schedule and agenda for evening training that is workable and covers the
same material as the daytime classes.



29
 Eagle International, Inc., “2004 Census Test Review & Evaluation of Training Efficacy.” Prepared for the Census
Bureau under contract # OPM-01-01070, April 2004, Rochester, New York.


                                                      35

U.S. Department of Commerce                                                                 Final Report OIG-17524

Office of Inspector General                                                                             March 2006




LCO strategy for training crew leaders and crew leader assistants differed. To fill crew
leader positions, the Travis County LCO invited applicants to training and paid them the crew
leader wage ($16 per hour) while they were in the class. Those who performed well in training
and seemed to possess supervisory skills were chosen as crew leaders. The remaining class
members became crew leader assistants and their hourly wage dropped to $14.50.

The Cheyenne River Reservation took the opposite approach: applicants were invited to crew
leader assistant training and told that those who performed well would become crew leaders. The
local office selected trainees for crew leader according to their ability to use the HHC, their
understanding of procedures, demonstrated supervisory skills, and desire to be in a leadership
position. The reservation’s approach not only saved money by paying the lower wage during
training, it also motivated participants to do well in the hope of being promoted.

Crew leaders did not always train their own team of listers. Less than 5 percent (10 out of
216) of listers were trained by their crew leaders in Travis County. As a result, listers had
trouble scheduling their initial on-the-job observation and starting fieldwork because their leader
was teaching another class and assignments were not sorted out. When we told the Dallas
Regional Office officials that crew leaders had not trained most of their crew, they were
surprised by this and have taken actions intended to ensure that it does not occur during
nonresponse follow-up training.

Bureau officials stated that they expect crew leaders to train their listers30 and acknowledged that
there was a miscommunication with the local office in Travis County. For future operations, the
instructions for scheduling and assigning field staff to the initial training classes should be
clarified to ensure that crew leaders train their own crews.

RECOMMENDATIONS

The Census Bureau director should direct appropriate management officials to take the following
actions:

     1.	     Clarify the overtime policy.

     2.	     Explore options for meeting the cell phone needs of some Census employees. Census
             may find it more efficient to rent or purchase cell phones for some of the employees
             to use and negotiate plan rates at the regional or national levels, and/or to set a
             specific dollar allowance to cover cell phone use.

     3.	     Modify and field test the training and class schedules and evaluate their impact on the
             staff’s comprehension and performance during the decennial dress rehearsal.

     4.	     Clarify the instructions for scheduling and assigning employees to the initial training
             sessions to ensure that to the extent possible, crew leaders train their crew.
30
  Replacement and evening training classes are the exception, as the classes contain a mix of listers from all crew
leader districts, thus listers are not paired with their crew leader.


                                                         36

U.S. Department of Commerce                                                      Final Report OIG-17524

Office of Inspector General                                                                  March 2006





Synopsis of Census’s Response

The Census Bureau indicated that it would explore ways to comply with our recommendations to
clarify the overtime policy, review the cell telephone policy, and modify the instructions for
scheduling and assigning employees to ensure crew leaders train their crew. The bureau stated
that it lacked resources, both financial and staff, to field test different training approaches and
class schedules and evaluate their impact on the staff’s comprehension and performance before
the decennial.

OIG comments

We are pleased that the bureau will explore ways to comply with most of the recommendations
in this section. In its action plan it should detail the options it considered and the specific actions
it will be taking, including a timeline for such actions. The bureau stated in its response that it
would welcome any suggestion OIG might have related to the overtime policy. The bureau
should refer to page 33 of this report, which offers a number of suggestions that would
strengthen the overtime policy. In addition, we agree that testing training prior to the dress
rehearsal would be difficult to accomplish at this time, although we suggest the bureau make
some modifications for dress rehearsal training. We changed the recommendation pertaining to
training accordingly.




                                                  37

U.S. Department of Commerce                                                          Final Report OIG-17524

Office of Inspector General                                                                      March 2006




VI. 	   CONCLUSION: VALUABLE LEARNING OPPORTUNITIES WERE MISSED IN
        THE 2006 TEST ADDRESS CANVASSING OPERATION

The 2006 site test is part of the Census Bureau’s strategy to evaluate reengineered operations
under realistic conditions, well in advance of the 2010 census. Tests require a considerable
investment of resources—staff hours in planning and development at Census headquarters and
implementation costs in the field—to yield important information for planning the upcoming
decennial.
                                               Figure 11: Census Evaluation Program for Address
We concluded that the bureau only              Canvassing
partially achieved its objectives for the                     Research Questions                    Status
                                                1.    How does automating the address
2006 test of address canvassing. It gained            canvassing operation:
only limited information about new                    a. Reduce the amount of time it takes        Cancelled
automation, procedures, and processes to                  to collect data?
                                                      b. Reduce the amount of time it takes        Cancelled
analyze and apply to the decennial. We                    to post-process collected data?
believe the bureau could have earned a                c. Improve the quality of the collected      Cancelled
better return on its investment if it had                 data?
                                                      d. Improve the performance of the            Cancelled
evaluated other aspects of address                        listers in collecting the data?
canvassing and had furnished well-              2.    Is GPS a sufficiently accurate means for
functioning handheld computers. In                                                                 Cancelled
                                                      collecting coordinates of living quarters?
addition, the bureau has not provided any       3.    Does the verification operation correctly
                                                                                                   Revised
                                                      identify addresses to be deleted?
analysis justifying the use of 100 percent      4.    Lister’s spatial ability using HHC maps &    No
address canvassing, and it is unclear                 GPS                                          Change
whether the benefits of such                   Source: U.S. Census Bureau
comprehensive canvassing outweigh the
costs.

Benefits of the 2006 Address Canvassing Operation Uncertain Because of HHC Problems and
Limited Test Objectives

According to the bureau, tests are performed for the express purpose of providing data and
information upon which to make the most informed decisions about the methods, procedures,
and systems to be used in the actual census. The bureau also states that the core of the testing
strategy is the set of research questions and the evaluations designed to answer them.
Evaluations analyze, interpret, and synthesize the effectiveness and impact of operations.

Census had planned mainly to evaluate the use of handheld computers and the new delete
verification process for address canvassing in the 2006 test. But reliability problems with the
HHCs disrupted lister training and canvassing, made it difficult for listers to follow procedures,
and marred test results. Consequently, the bureau stated that it curtailed its evaluation program
because it could not obtain the accurate data needed for a comprehensive quantitative analysis,
such as lister production rates and acceptable address coordinates. The bureau stated its reduced
fiscal year 2006 appropriation was also a factor in curtailing the evaluation program. Figure 11
summarizes the status of the research questions the bureau planned to evaluate during address
canvassing, only one of which remains unchanged.


                                                38

U.S. Department of Commerce                                                                 Final Report OIG-17524

Office of Inspector General                                                                             March 2006




Census was able to finish the address canvassing operation and intends to prepare informal
assessments of various aspects of the operation (qualitative rather than quantitative
assessments).31 For example, bureau officials told us they are analyzing the address coordinate
data collected. However, as noted in chapter I of this report, the bureau does not have sufficient
information to explain problems with GPS and associated problems with manual coordinate
collection to proceed with a nationwide coordinate collection program for the 2010 census. To
make informed decisions about the reengineered address canvassing operation for the decennial,
Census needs to answer the research questions originally asked for this test.

In light of the known problems with the HHCs, if the following issues had been addressed the
test could have been more valuable to the bureau. The sites selected for the test were either all
city-style addresses receiving their census questionnaires by postal delivery, or rural areas where
a costly bureau operation delivered the questionnaires. As we discussed previously, the bureau
had identified rural areas where having the post office deliver questionnaires might reduce costs,
but none were included in the 2006 test. The test offered a unique opportunity to evaluate
alternative approaches to training, as well as the impact of the partnership program on the hard-
to-enumerate populations located in Travis County and the American Indian community that
resides on the Cheyenne River Reservation. Evaluations from the 2000 decennial had
recommended further studies in these areas.

Benefits Versus Cost of 100 Percent Address Canvassing Need to Be Evaluated

After observing the address canvassing operation, we believe that Census needs to better clarify
its rationale and decision to canvass 100 percent of the
nation for the 2010 decennial. Census had initially intended    National Research Council
                                                                Recommendation 3.6:
to target selected areas for canvassing, but now plans to       The Census Bureau should evaluate
have listers knock on nearly every residential door in the      the necessity of its plans to conduct a
nation—an estimated 115 million addresses—to update the         complete block canvass shortly before
                                                                the 2010 census. Such justification
master address file. The bureau believes 100 percent            must include analysis of extant census
canvassing will allow it to collect GPS coordinates for all     operational data and should include,
addresses, identify group quarters, and treat all jurisdictions but not be limited to, the following:
                                                                1. arguments as to why selective
equally. However, the bureau has provided no analysis that          targeting of areas for block canvass
demonstrates why 100 percent canvassing is the best                 is either infeasible or inadequate,
approach. A 2004 report by the National Research Council            and as to how the costs of the
                                                                    complete block canvass square
asked for more analysis and questioned the cost-benefit of          with the benefits; and
this decision (see box).32                                      2. analysis of how a full block canvass
                                                                                 fits in the Census Bureau’s cost
                                                                                 assumptions for the 2010 census.
From our observations, the address list appeared to be fairly
stable, particularly in the Travis County test site with city-
style addresses. In its own evaluation of Census 2000 address-building activities, the bureau

31
   Unlike evaluations, operational assessments document final volumes, rates, and costs for individual operations or

processes. Assessments include some discussion of data, but do not include explanation of error. Results from

operational assessments can identify new research questions requiring new evaluations. 

32
   National Research Council, 2004. Reengineering the 2010 Census: Risks and Challenges. Washington, D.C.:

National Research Council, p 98. 



                                                         39

U.S. Department of Commerce                                                           Final Report OIG-17524

Office of Inspector General                                                                       March 2006




reports that the U.S. Postal Service was the most significant contributor of address list
improvements for city-style addresses where mail delivery occurs. Consequently, to assess
address file improvements as a result of the address canvassing operation, the bureau needs to
determine how many of the changes made during the operation would have been captured by an
updated address file from the Postal Service. In addition, the bureau should identify the number
of hidden units, such as basement or garage units, uncovered during address canvassing, as this
operation is most likely the best way to discover such living quarters. It is only by comparing
costs and benefits of the operation that the merits of conducting a 100 percent canvassing
operation can adequately be assessed.

RECOMMENDATION

     The Census Bureau director should direct appropriate management officials to perform an
     analysis of the costs and benefits of 100 percent address canvassing and consider whether
     alternative, less costly strategies for developing the address list for the 2010 decennial are
     feasible.



Synopsis of Census’s Response

The Census Bureau’s response asserts that anything less than 100 percent address canvassing in
all areas would result in some addresses being left out of the initial address list for the 2010
Census. It indicated that it had planned to test some alternatives this decade but claimed that
funding reductions prevented it from doing so. Having lost that opportunity, the bureau believes
it cannot risk using an untested alternative and must therefore canvass 100 percent of the nation.

OIG comments

OIG is not advocating for or against 100 percent canvassing. However, continuously
maintaining the master address file to permit targeted address canvassing was a cornerstone of
Census’s original reengineered design. Then, with little explanation, the bureau abandoned this
aspect of its design and reverted to 100 percent address canvassing at an estimated increase of
$38 million to the life-cycle costs of the 2010 census,33 but did not articulate any alternatives it
may have considered and their relative costs and benefits. By asserting in its response that
anything less than 100 percent address canvassing in all areas will, by definition, result in some
addresses being left out of the initial address list for the 2010 census, the bureau implies that 100
percent address canvassing will not miss addresses. Although intuitively appealing in concept,
100 percent address canvassing has significant challenges of its own, and unfortunately, even
this expensive operation cannot render a perfect address list—an outcome bureau officials
readily acknowledge. Since Census has not provided any evidence that 100 percent address
canvassing produces an address list that is more accurate than one that could be produced with an
alternative methodology, we question whether the additional expense of 100 percent address
33
  U.S. Census Bureau, March 1, 2004. Estimated Life Cycle Costs for the Reengineered 2010 Census of Population
and Housing, 2010 Census Planning Memoranda Series No. 27, Washington, D.C.: Census Bureau.


                                                      40

U.S. Department of Commerce                                                  Final Report OIG-17524

Office of Inspector General                                                              March 2006




canvassing is justified. The bureau’s obligation, then, is to identify the most cost effective
approach to obtaining an address list of requisite quality to support the 2010 decennial goals for
accuracy of census coverage, cost containment, and operational risk.




                                                41

U.S. Department of Commerce                                                   Final Report OIG-17524

Office of Inspector General                                                               March 2006




SUMMARY OF RECOMMENDATIONS

The Census Bureau director should direct appropriate management officials to take the
following actions:

1. 	   Enhance the reliability of automation in future tests and operational programs by
       a.	   continuing to improve system development practices and
       b.	   using contractors to fill any staffing gaps or, when warranted, to handle system
             development (see page 8).

2. 	   Develop an adequate handheld computer capability for collecting address coordinates by
       a. 	  determining the factors that affect the reliability of GPS and accuracy of address
             coordinate collection, and
       b. 	  developing a plan for implementing and testing improvements so that this
             capability effectively supports decennial operations (see page 8).

3. 	   Ensure that the FDCA contract appropriately addresses automation issues identified in
       the 2006 test. These include system reliability, performance, and usability; GPS
       processing; and HHC street mapping capabilities (see page 9).

4.	    Establish a process for timely analysis of test results and incorporating resulting
       requirements changes for address canvassing and nonresponse follow-up into the FDCA
       contract. If possible, incorporate changes to address canvassing requirements before
       contract award (see page 9).

5.	    Determine why the TIGER map database contains nonexistent roads and develop
       approaches to eliminate such roads nationwide from the database by the 2010 census (see
       page 14).

6.	    Refine lister training to provide clear and effective instruction on when and how to
       correct maps and adjust routes (see page 15).

7.	    Provide computer prompts to aid listers in following procedures for deleting addresses,
       obtaining complete address information during the interview process, placing precise
       map spots, and canvassing complex blocks efficiently (see page 17).

8.	    Develop and implement a mechanism for alerting local Census officials about assignment
       areas that may be difficult to canvass (see page 17).

9.	    Review the block formation process and reduce block complexity where possible (see
       page 17).

10.	   Determine what addresses are sufficiently clustered to shift bureau delivery of
       questionnaires to postal service delivery, and include such areas as trials in the 2008 dress
       rehearsal (see page 18).


                                                42

U.S. Department of Commerce                                                   Final Report OIG-17524

Office of Inspector General                                                               March 2006





11.	   Design a comprehensive, targeted training course for quality control listers that imparts
       the skills and knowledge necessary (see page 24).

12.	   Disclose enough information about quality control failures to production managers so
       that they can take timely action to improve their listers’ work during address canvassing
       (see page 24).

13.	   Consider equipping handheld computers with the capability to identify whether an
       interview was conducted to facilitate quality control (see page 26).

14.	   Complete the Tribal Governments Liaison Program handbook in time for the tribal
       liaison to review it and suggest changes prior to the end of the 2006 test (see page 28).

15.	   Develop ways of measuring and evaluating the impact of partnership activities (see page
       29).

16.	   Ensure that a useable partnership database, or another resource to facilitate tracking
       partnership information, is in place for the 2010 decennial (see page 30).

17.	   Clarify the overtime policy (see page 32).

18.	   Explore options for meeting the cell phone needs of some Census employees. Census
       may find it more efficient to rent or purchase cell phones for some of the employees to
       use and negotiate plan rates at the regional or national levels, and/or to set a specific
       dollar allowance to cover cell phone use (see page 34).

19.	   Modify and field test the training and class schedules and evaluate their impact on the
       staff’s comprehension and performance during the decennial dress rehearsal (see page
       35).

20.	   Clarify the instructions for scheduling and assigning employees to the initial training
       sessions to ensure that to the extent possible, crew leaders train their crew (see page 35).

21.	   Perform an analysis of the costs and benefits of 100 percent address canvassing and
       consider whether alternative, less costly strategies for developing the address list for the
       2010 decennial are feasible (see page 38).




                                                43

U.S. Department of Commerce                                                Final Report OIG-17524

Office of Inspector General                                                            March 2006




                                       APPENDIXES 


    APPENDIX A: SUGGESTED IMPROVEMENTS TO HANDHELD COMPUTERS 


# Current HHC Functionality                       Suggested Improvement
1 No automated support for interview and          Script that prompts listers step-by-step
  only limited guidance for updating address      through (a) interviewing the structure’s
  record                                          occupant and (b) updating address record

2 No automated guidance to reinforce training     Guidance information, such as definitions,
  in how to handle difficult situations (e.g.,    for following procedures that the lister can
  determine if a multiunit structure qualifies    access via pop-up windows, hyperlinks, etc.
  as “other living quarters”)
3 Time consuming to update apartment              Ability to update address records for
  address records individually                    individual apartments as a group, when
                                                  appropriate
4 Lister chooses level of HHC map precision       Automatically zoom to the best level of
  to zoom to place map spot                       HCC map for placing map spot

5 No indicator if housing unit resident was       Indicator showing whether a housing unit
  interviewed                                     resident was interviewed

6 No field to record additional interviewee       Field for recording additional interviewee
  information (e.g., E-911 or additional P.O.     information
  boxes)




                                                44

U.S. Department of Commerce                                                     Final Report OIG-17524

Office of Inspector General                                                                 March 2006




                                   APPENDIX B: GLOSSARY 


Item (Acronym)                      Definition
                                    An operation to contact respondents at identified Group Quarters
                                    to alert them to the enumeration that follows, to collect basic
Advance Visit
                                    identifying information such as the name of the contact person,
                                    and to schedule an appointment for enumeration.

Assignment area                     The census block or group of blocks assigned to a lister.

                                    An operation designed to improve coverage by collecting
                                    additional information from households with potential errors, such
                                    as duplicate persons, mail-back questionnaire discrepancies, and
Coverage follow-up
                                    large households (more than 6 persons). The method involves a
                                    telephone and field visit for those that are not contacted by
                                    telephone.
                                    An operation designed to provide estimates of coverage error
Coverage measurement                using methods such as clerical computer-assisted matching,
                                    computer matching, and interviewing.
                                    Responsible for training, supervising, and monitoring the quality of
Crew leader
                                    lister work.
                                    Staff drawn from the pool of enumerators to aid crew leaders with
Crew leader assistant               some field operations by performing specific crew leader
                                    functions.
                                    The area assigned to a crew leader, formed by grouping together
Crew leader district
                                    a number of enumerator assignment areas.
                                    A field check of every assignment area that has been completed.
                                    Beginning at a random starting point a certain number of
Dependent Quality Control (DQC)     addresses (12 consecutive housing units in Travis County and 8
                                    at the Cheyenne River test site) in each completed assignment
                                    area is reviewed.
                                    The process of interviewing people and recording the information
Enumeration
                                    on census forms.
                                    A program that consists of automation resources, applications,
Field Data Collection Automation
                                    and infrastructure necessary to support field data collection
(FDCA)
                                    operations in the 2010 census.
                                    Responsible for training, supervising, and monitoring the quality of
Field operations supervisors
                                    crew leader work.
                                    For questionnaires without Master Address File identification
                                    numbers, enumerators verified the existence of units that had
Field verification
                                    been geocoded to a census block, but did not match an address in
                                    the Master Address File.
                                    A code used to identify a specific geographic entity. For example,
Geocode                             the geocodes needed to identify a census block are the state
                                    code, county code, census tract number, and block number.
                                    A system of 24 satellites used to locate any point on the earth by
Global Positioning System (GPS)
                                    triangulation and distance measuring.
                                    A living quarter in which unrelated people live or stay other than
Group Quarters                      the usual housing unit. Two types of group quarters are
                                    recognized: institutional (for example, nursing homes, hospitals,



                                                45

U.S. Department of Commerce                                                        Final Report OIG-17524

Office of Inspector General                                                                    March 2006




                                      hospices, and prison wards) and noninstitutional (for example,
                                      college or university dormitories, military barracks, group homes,
                                      shelters, missions, and flophouses).

Group quarters validation             An operation to identify and validate group quarter addresses.

                                      A small electronic device that has a self-contained processing unit,
Handheld computer (HHC)               contains telecommunications capabilities, and is easily
                                      transportable.
                                      An area for which the environment or population may present
Hard-to-enumerate (HTE)
                                      difficulties for enumeration.
                                      A single-family house, townhouse, mobile home or trailer,
                                      apartment, group of rooms, or single room that is occupied as a
Housing unit
                                      separate living quarters or, if vacant, is intended for occupancy as
                                      a separate living quarters. See “separate living quarters.”
                                      A dot on a census map that shows the location of a structure
Map spot
                                      containing one or more living quarters.
                                      A computer file of every address and physical/geographic location
Master Address File (MAF)
                                      description known to the Census Bureau.
                                      The database used to track, plan, strategize, and analyze
PRISMS                                partnership and data services with local, regional, and
                                      headquarters access.
                                      Various statistical methods that validate that products or
                                      operations meet specified standards. For the 2006 address
Quality Control (QC)                  canvassing operation, the QC process consisted of a dependent
                                      quality control review and the verification of deleted addresses,
                                      duplicate addresses, and house number changes.
                                      Living quarters in which one or more occupants live separately
                                      from any other individual(s) in the building and have direct access
Separate living quarters
                                      to the living quarters without going through another living quarters,
                                      such as from outside the building or through a common hall.
                                      A method designed to count people at facilities that primarily serve
                                      people without conventional housing, such as emergency or
Service based enumeration
                                      transitional shelters, soup kitchens, and regularly scheduled
                                      mobile food van stops.
Topologically Integrated Geographic
                                      A digital (computer-readable) geographic database of all census-
Encoding and Referencing database
                                      required map features.
(TIGER)
                                      A type of group quarters enumeration in which special procedures
                                      are used to count people at transient locations, such as
Transient night                       campgrounds at racetracks, recreational vehicle campgrounds
                                      and parks, commercial and public campgrounds, fairs and
                                      carnivals, and marinas.
                                      A method to collect data in communities that may not have house-
                                      number-and-street-name mailing addresses. Enumerators
Update/Enumerate
                                      complete a questionnaire for each housing unit listed and update
                                      addresses and maps.
                                      A method to collect data in which enumerators deliver a census
                                      questionnaire to each housing unit to be completed and returned
Update/Leave                          by mail. This method is used primarily in areas where many
                                      homes do not receive mail at a city-style address. Enumerators
                                      also update addresses and maps.
Source: Census and OIG


                                                  46
U.S. Department of Commerce                                     Final Report OIG-17524

Office of Inspector General                                                 March 2006




                              APPENDIX C: CENSUS’S RESPONSE 





                                            47

U.S. Department of Commerce         Final Report OIG-17524

Office of Inspector General                     March 2006





                              48

U.S. Department of Commerce         Final Report OIG-17524

Office of Inspector General                     March 2006





                              49

U.S. Department of Commerce         Final Report OIG-17524

Office of Inspector General                     March 2006





                              50

U.S. Department of Commerce         Final Report OIG-17524

Office of Inspector General                     March 2006





                              51

U.S. Department of Commerce         Final Report OIG-17524

Office of Inspector General                     March 2006





                              52

U.S. Department of Commerce         Final Report OIG-17524

Office of Inspector General                     March 2006





                              53

U.S. Department of Commerce         Final Report OIG-17524

Office of Inspector General                     March 2006





                              54

